<html>
<title> - REVIEW OF VETERANS EMPLOYMENT CHALLENGES AND INITIATIVES OF THE 112TH CONGRESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 REVIEW OF VETERANS EMPLOYMENT CHALLENGES AND INITIATIVES OF THE 112TH 
                                CONGRESS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, NOVEMBER 15, 2012

                               __________

                           Serial No. 112-80

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
78-770                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           November 15, 2012

                                                                   Page

Review of Veterans Employment Challenges and Initiatives of the 
  112th Congress.................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared Statement of Chairman Stutzman......................    26
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared Statement of B. Braley..............................    26
Hon. Gus M. Bilirakis............................................     3
Hon. Timothy J. Walz Prepared Statement only.....................    27

                               WITNESSES

John K. Moran, Deputy Assistant Secretary for Operations & 
  Management, Veterans' Employment and Training Service, U.S. 
  Department of Labor............................................     4
    Prepared Statement of Mr. Moran..............................    27
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................     6
    Prepared Statement of Mr. Coy................................    31
    Accompanied by:

      Ms. Margarita Devlin, Deputy Director, Vocational 
          Rehabilitation and Employment Service, Veterans 
          Benefits Administration, U.S. Department of Veterans 
          Affairs
Mr. Eliseo ``Al'' Cantu, Jr., Chair, Texas Veterans Commission...     8
    Prepared Statement of Mr. Cantu, Jr..........................    35
    Accompanied by:

      Mr. Shawn Deabay, Director, Veterans Employment Services, 
          Texas Veterans Commission
MG Abraham J. Turner USA (Ret.), Chair, Veterans Affairs 
  Committee, National Association of State Workforce Agencies, 
  Executive Director, South Carolina Department of Employment and 
  Workforce......................................................    10
    Summary of Testimony presented by Major General Turner.......    37
    Prepared Statement of Major General Turner...................    38


                     REVIEW OF VETERANS EMPLOYMENT
                   CHALLENGES AND INITIATIVES OF THE
                             112TH CONGRESS

                              ----------                              


                      Thursday, November 15, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Huelskamp, 
Braley, and Walz.
    Also Present: Representative Flores.

         OPENING STATEMENT OF CHAIRMAN MARLIN STUTZMAN

    Mr. Stutzman. Good morning. I want to welcome all of you 
this morning to the Subcommittee on Economic Opportunity of the 
Veterans' Affairs Committee.
    I apologize for being late. And I also apologize as I am 
just getting over a cold, so I am trying my radio voice out 
this morning. But it is good to be back.
    And I want to first of all extend congratulations to 
everyone on the Committee who won reelection and glad that is 
all behind us, I am sure. I know my wife is.
    And I want to also express special appreciation to Mr. 
Braley for his work in working together over the past two 
years. I know that we have done some good work, but we know we 
have a lot more to do and are looking forward to that.
    I also want to welcome Congressman Flores when he comes.
    I ask unanimous consent that Mr. Flores of Texas be allowed 
to sit at the dais and ask questions. Hearing no objection, so 
ordered.
    It is hard to pick up a newspaper or access a news Web site 
that does not have a story about the difficulties facing 
veterans who are returning to the civilian workforce today.
    As a result, even though the overall veteran unemployment 
rate is lower than the non-veteran rate, in some segments of 
the veteran workforce, younger veterans are having a more 
difficult time finding employment than non-veterans.
    Unfortunately, most of the information we read or hear is 
anecdotal with little hard data to suggest ways Congress can 
lower those rates.
    For example, BLS staff will state that data on the rates 
for veterans in the 18 to 24 age group is soft because of a 
small sample size.
    For example in many states, a veteran attending school full 
time under the Post-9/11 GI Bill could also draw unemployment 
benefits and be counted as unemployed.
    I am not suggesting that this is inappropriate, rather 
noting that it is a factor in calculating unemployment rates.
    I would say that the centerpiece of our work in the 112th 
Congress was passage of the Veterans Retraining Assistance 
Program as part of the VOW to Hire Heroes Act.
    As of November 13th, VA has received nearly 75,000 
applications and approved 62,295. That is great progress 
towards filling all 99,000 slots provided in the legislation, 
but I am somewhat concerned about the slow enrollment rates and 
we will discuss that during questioning.
    Let me also express my great appreciation to Curt Coy for 
the energy and professionalism he has displayed in implementing 
VRAP.
    I know you had been a bit under the weather and we are glad 
to see you back and glad things are going well.
    Before I recognize the Ranking Member, I would like to 
emphasize that we rely on the executive branch for answers that 
will assist us in forming future legislation.
    To that end, in the invitation sent to VA and VETS, we have 
asked them to answer several questions in their testimony 
centering on the outcomes of those completing their vocational 
rehabilitation plan and the VRAP Program.
    With that in mind, I find the Department of Labor's 
response or non-response for that matter to our request for 
their intentions regarding the utilization of the DVOPs and 
LVERs totally unhelpful and disappointing.
    What we have been told that you are proposing significant 
changes, and this Subcommittee's responsibility is to ensure 
that the taxpayer resources are spent in accordance with the 
law. I look forward to hearing the answers.
    And at this time, I recognize the distinguished ranking 
member from Iowa, Mr. Braley.

    [The prepared statement of Hon. Stutzman appears in the 
Appendix].

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Well, I want to thank the Chairman and I want 
to congratulate you as well on your reelection.
    And I am just curious why when I was traveling in Cedar 
Rapids, Iowa you were campaigning for a State House seat in 
District 77 in Iowa. The sign says elect Stutzman for State 
House. But I did not even know you were running. 
Congratulations on any election you happen to win.
    Mr. Stutzman. That could start some bad rumors.
    Mr. Braley. But, you know, a lot of times when you are out 
campaigning, you hear a lot of concerns from veterans. And one 
of the best parts about the campaigning to me was getting to 
hear from veterans and share their concerns about the backlog 
in disability claims, about what we are doing to find job 
opportunities for unemployed veterans.
    And it really brings home the immediacy and importance of 
the work of the Committee. And I want to make sure that 
everyone hears this.
    It has been an honor and privilege to serve with you on 
this Subcommittee as your Ranking Member. We have had very 
meaningful experiences together both in your district and in my 
district holding field hearings on how we find work for 
unemployed veterans.
    You have treated me and my staff with the utmost respect 
and I cannot tell you how much I appreciate that and how much I 
appreciate your friendship more than that. I think it is an 
indication of what is possible in Congress when people can work 
together for a common purpose, and thank you for setting that 
high standard.
    I am going to reserve my comments about the nature of the 
hearing until we get to hear from the witnesses, but I look 
forward to your testimony. And it is a very important topic 
that brings us here today. It is nice to be back to work and 
talking about important issues that affect the lives of our 
Nation's veterans.
    And with that, I yield back.
    Mr. Stutzman. Thank you. And I thank you for your remarks 
as well.
    And at this time, I do want to recognize Mr. Bilirakis. He 
is going to have to slip out. But at this time, I recognize the 
gentleman from Florida.

    [The prepared statement of Hon. Bruce L. Braley appears in 
the Appendix]

           OPENING STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you very much, Mr. Chairman. I 
appreciate it very much. Thank you for holding this very 
important hearing.
    As we approach the end of the 112th Congress and given the 
emphasis on increasing the information available to veterans as 
they choose an institution to attend using their GI benefits, I 
would like to express my hope that the Senate will pass H.R. 
4057 as amended, and this originated in this Committee.
    The bill which passed this Committee and the House on an 
overwhelmingly bipartisan basis included some excellent 
provisions suggested by our ranking member, Mr. Braley. And, 
again, this Committee works on a bipartisan basis on behalf of 
our true American heroes.
    I am aware that several VSOs and education associations 
have urged the Senate Veterans' Affairs Committee to pass H.R. 
4057 as amended. This bill is needed to ensure that veterans 
have access to the necessary information to best decide where 
to use their valuable and hard-earned GI benefits, the 
education benefits to meet their future career aspirations. And 
I hope the Senate will send the bill to the President.
    I appreciate the time, Mr. Chairman, and I yield back the 
balance of my time. Thank you.
    Mr. Stutzman. Thank you, Mr. Bilirakis. Appreciate your 
remarks.
    At this time, I want to move to the first panel. And with 
us today, we have Mr. John Moran with the Veterans' Employment 
and Training Service with the U.S. Department of Labor and 
also, of course, Mr. Coy accompanied by Ms. Margarita Devlin 
with the U.S. Department of Veterans Affairs.
    We are going to go ahead and invite everyone forward to the 
witness table at this time. We are going to have just one panel 
this morning, so we can just have one discussion.
    And we want to welcome Mr. Eliseo Cantu, Jr. accompanied by 
Mr. Shawn Deabay from the Texas Veterans Commission. Thank you 
for coming a long way and being here.
    And I also want to recognize Mr. Major General Abraham 
Turner as well who is here representing the National 
Association of State Workforce Agencies.
    I want to welcome you all to the Subcommittee. And without 
objection, your complete written statement will be made part of 
the record. And I want to thank each of you for your service 
and what you do for our veterans and to those of you who have 
served for your individual service to our country as well.
    At this time, we are going to recognize Mr. Moran for five 
minutes for your testimony. Mr. Moran.

  STATEMENTS OF JOHN K. MORAN, DEPUTY ASSISTANT SECRETARY FOR 
  OPERATIONS & MANAGEMENT, VETERANS' EMPLOYMENT AND TRAINING 
SERVICE, U.S. DEPARTMENT OF LABOR; CURTIS L. COY, DEPUTY UNDER 
     SECRETARY FOR ECONOMIC OPPORTUNITY, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS, 
 ACCOMPANIED BY MARGARITA DEVLIN, DEPUTY DIRECTOR, VOCATIONAL 
    REHABILITATION AND EMPLOYMENT SERVICE, VETERANS BENEFIT 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF JOHN K. MORAN

    Mr. Moran. Thank you.
    Good morning, Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing on the veterans' 
employment challenges and initiatives.
    My name is John Moran and I am the Deputy Assistant 
Secretary for the Veterans' Employment and Training Service. I 
am joined by my colleague today, Jeri Fiala, Deputy Assistant 
Secretary of the Employment and Training Administration at the 
department.
    The Department of Labor is fully committed to ensuring that 
our transitioning servicemembers, veterans, and their families 
have the employment support, assistance, and opportunities they 
deserve to succeed in the civilian workforce.
    Providing these brave men and women with the employment 
services they need is a department-wide effort. In fact, I co-
chair with Ms. Fiala the department's All Things Veterans 
Working Group. We meet biweekly and discuss our approach in an 
integrated fashion and in a holistic manner to address all the 
employment challenges for our veterans.
    In doing so, we are provided by our P3 campaign, prepare, 
provide, and protect. We prepare our veterans, separating 
servicemembers, and their spouses to transition from the 
military to the civilian workforce through a variety of 
programs including TAP.
    We provide them with the critical resources, expertise, and 
training to assist them in locating and obtaining meaningful 
careers, and we protect the employment rights of the men and 
women that serve this Nation and assure they are provided every 
opportunity they have earned in the workplace.
    As you know, the department provides employment and 
training services to eligible veterans primarily through the 
2,800 American job centers that serve as the cornerstone of the 
Nation's workforce investment system.
    The department ensures that eligible veterans, 
transitioning servicemembers, and their spouses receive 
priority service at all AJCs with respect to all DoL funded 
employment and training programs.
    In addition, the department through the JVSG Program funds 
two types of state level positions, the Disabled Veterans 
Outreach Program specialist, DVOPs, and the Local Veteran 
Employment Representatives, LVERs.
    Specifically trained DVOPs provide intensive services to 
veterans who have significant barriers to employment to improve 
their employment prospects and to get them job ready.
    LVERs conduct outreach to employers to develop and identify 
employment opportunities for all veterans served by the AJC and 
to educate them and advise them of veteran issues.
    Over the last years, there has been a lack of mission 
clarity surrounding the primary duties of DVOPs and LVERs which 
has led to the risk that those veterans with the most 
significant barriers to employment could be under-served.
    The department is committed to addressing this issue and is 
currently in the process of examining its policies with respect 
to the roles and responsibilities of DVOPs and LVERs.
    We look forward to working with the Committee and other 
stakeholders and will keep the Committee informed as our work 
progresses.
    The department has also undertaken another initiative, one 
targeted at improving awareness of the American Jobs Center 
system among current servicemembers and veterans. Our strategy 
involves a four-fold increase in the number of times we 
interact with and provide employment assistance and guidance to 
separating servicemembers.
    These four touch points occur first when the servicemember 
decides to separate from the military, second when the 
servicemember attends the Transition Assistance Program, third 
at the point of the formal separation from the service, and 
fourth approximately 70 days after separation.
    We expect the result of this outreach to be improved 
employment outcomes potentially resulting in a corresponding 
decrease in unemployment compensation claims.
    We are also mindful that our outreach will reinforce the 
message that we are standing by our troops even after they 
leave the service.
    As you know, Section 211 of the VOW Act requires that the 
VA and DoL jointly administer the process for determining an 
applicant's eligibility under the Veterans Retraining 
Assistance Program.
    To this end, DoL and the VA have developed a joint 
application process that relies on a combination of VA data and 
self-attestation. Currently there are over 62,000 veterans 
accepted into the program and roughly 17,000 enrolled in 
training.
    In May, the department issued formal guidance to the 
workforce system describing VRAP and held a system-wide webinar 
in collaboration with the VA.
    In October, DoL provided formal policy guidance to the 
state workforce system relating to providing outreach to the 
VRAP participants no later than 30 days after they exit the 
program as required by law.
    Additionally, DoL sent their welcome to VRAP email to over 
50,000 veterans with an approved application. This email 
informed them of the services and assistance available through 
AJCs, the right to priority service, how to locate their 
state's job bank and the nearest AJC, and provided them with VA 
contact information.
    The department remains fully committed to serving our 
Nation's veterans and returning servicemembers as well as they 
have served us. We are dedicated to leading the effort to 
ensure each one of these brave Americans is successful in their 
pursuit of civilian employment.
    The department believes in good jobs for all Americans, but 
veterans are at the front of the line.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to testify this morning. I would be pleased to 
answer any questions you may have.
    Mr. Stutzman. Thank you, Mr. Moran.
    At this time, we will recognize Mr. Coy for five minutes 
for his testimony.

    [The prepared statement of John K. Moran appears in the 
Appendix]

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Good morning, Chairman Stutzman, Ranking Member 
Braley, and Members of the Subcommittee.
    I am pleased to join you today to discuss the Department of 
Veterans Affairs' efforts to prepare veterans for reemployment 
and/or retraining through the Vocational Rehabilitation and 
Employment Program and the Veterans Retraining Assistance 
Program or VRAP.
    With me at the table this morning is Margarita Devlin, our 
Deputy Director of our VRE Program.
    Helping solve the issue of veteran unemployment begins with 
giving our veterans a strong foundation of education and 
training on which to build their careers.
    The Post-9/11 GI Bill provides financial support to 
veterans to pursue undergraduate and professional degrees, 
vocational and technical training, licenses and certifications, 
and even training in entrepreneurship.
    During the 2012 fall term, VA received enrollments for 
475,000 participants resulting in 690,000 enrollment documents 
and 280,000 changes to enrollments.
    The VET Success on Campus Program will help veterans 
succeed in school by facilitating their transition from 
military to campus life.
    In 2012, the VSOC Program expanded to a total of 32 
campuses and VA plans to add another 52 VSOC counselors in 
2013.
    VRAP, our newest education benefit, helps retrain veterans 
hit hardest by unemployment, veterans aged 35 to 60. VA was 
authorized to provide VRAP benefits to 45,000 participants in 
2012 and the law permits an additional 54,000 participants in 
2013.
    We began accepting applications in May of 2012 and received 
over 45,000 applications in the first four months. Interest in 
the benefit remains high as VA continues to receive more than 
2,100 applications each week and has issued over 62,000 
certificates of eligibility so far.
    Within the VRAP demographic, the average age of a VRAP 
participant is 49, with 48 percent of all participants between 
the ages of 45 and 54. VA has already provided over $46.6 
million in program benefits to the more than 17,000 veterans 
enrolled in a training program.
    Based on current application and disallowance rates, we 
expect to reach 99,000 participants by early March of 2013. 
This success came through a significant outreach effort by VA 
and its partner agencies.
    We created dozens of email distribution lists, 84 as of 
last month, with thousands of individual email contacts. We 
distributed radio and video public service announcements to 
over 1,600 radio and television stations. We have created 
multiple print advertisements and worked with several 
periodicals to have them published.
    We continue to reach out to potential VRAP applicants, but 
are also making significant efforts to reach those veterans who 
received a certificate of eligibility and who have not yet 
enrolled in school.
    We have developed an email blast to be sent to every 
veteran in receipt of a certificate of eligibility but not yet 
enrolled to remind them to sign up for courses.
    During the recent Veterans Day weekend, VA coordinated with 
several nationwide retailers to have VRAP flyers distributed to 
their customers, and I traveled to New York City to represent 
VA in the inaugural New York City Veterans Week.
    In addition to giving a strong foundation of knowledge and 
training, VA has long offered employment services through the 
VRE Program. More than 800 vocational rehabilitation counselors 
and over 90 employment coordinators assist veterans with 
service-connected disabilities to prepare for, find, and keep 
suitable jobs.
    VRE provided services to over 114,000 veterans in 2012 that 
resulted in over 8,000 employment rehabilitations. Over 70 
percent of veterans who completed the program are currently 
working in a professional, managerial, or technical career.
    In January 2012, VA organized and hosted a career fair in 
Washington, D.C. And the following June, we also organized a 
hiring fair in Detroit where another 5,700 veterans were 
interviewed and 1,300 tentative job offers were made.
    We also are working with the Chamber of Commerce in their 
Hire Our Heroes events. We are leading the Federal Government 
in hiring veterans through our VA for Vets Program, the first 
of its kind, fully dedicated to veterans' federal employment.
    VA and its partners have made significant strides in 
veteran employment in the last two years. With an estimated 1.5 
million veterans likely to separate or retire in the coming 
five years and many of our youngest veterans still unemployed, 
now is the time to redouble our efforts to bring the intrinsic 
values our veterans have to bear to the civilian workforce.
    We are taking tangible steps to assist training and 
employing our veteran population.
    We thank the Subcommittee for helping us achieve these 
goals and allowing us to testify on the important issue of 
veteran employment.
    Mr. Chairman, this concludes my oral statement. I welcome 
any questions you or the other Members of the Subcommittee may 
have for me, sir.
    Mr. Stutzman. Thank you, Mr. Coy.
    Mr. Cantu, we will recognize you for five minutes. And I 
also understand you brought a video to show as well and we will 
show that video on the screens. Is that correct? No?
    Mr. Cantu. That is not correct, Mr. Chairman.
    Mr. Stutzman. Is it Mr. Turner? Mr. Turner. Your video. 
Okay. All right.
    You looked at me a little--with a blank stare there, so I 
understand.
    Okay. Well, after Mr. Turner's comments, then we will show 
the video then as well. All right. Thank you.
    Mr. Cantu, you are recognized for five minutes.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

 STATEMENTS OF ELISEO ``AL'' CANTU, JR., CHAIR, TEXAS VETERANS 
  COMMISSION, ACCOMPANIED BY SHAWN DEABAY, DIRECTOR, VETERANS 
EMPLOYMENT SERVICES, TEXAS VETERANS COMMISSION, AND ABRAHAM J. 
TURNER, CHAIR, VETERANS AFFAIRS COMMITTEE, NATIONAL ASSOCIATION 
OF STATE WORKFORCE AGENCIES, EXECUTIVE DIRECTOR, SOUTH CAROLINA 
             DEPARTMENT OF EMPLOYMENT AND WORKFORCE

             STATEMENT OF ELISEO ``AL'' CANTU, JR.

    Mr. Cantu. Good morning, Chairman Stutzman and Ranking 
Member Braley, and Members of the Subcommittee.
    For the record, my name is Eliseo ``Al'' Cantu, Jr., chair 
of the Texas Veterans Commission. I am humbled to testify by 
the invitation extended to me today. On behalf of the Texas 
Veterans Commission, I would like to thank you for this 
opportunity.
    Before I begin my testimony, I would like to commend 
congressional leaders on your efforts in passing Veterans 
Opportunity to Work Act legislation last year, especially the 
Veterans Retraining Assistance Program.
    This program allows veterans with limited skills and 
training to receive much needed assistance. TVC's veterans' 
employment representatives have and will continue to outreach 
to as many veterans as they can to ensure there is a vast 
awareness of the program in Texas.
    As of October the 18th, 2012, there were a total of over 
4,000 approved VRAP applications with 1,194 veterans actively 
participating in training.
    I am accompanied today by Mr. Shawn Deabay, Director of the 
Texas Veterans Commission Employment Services Program.
    The Texas Veterans Commission is a veterans' advocacy 
agency for the State of Texas. We provide superior service to 
veterans in the areas of claims assistance, employment 
services, education, and grant funding that will significantly 
improve the quality of life for all Texas veterans, their 
families, and survivors.
    No other State has centralized all of these program areas 
within their State's federal agency. Texas is becoming 
recognized for aggressively leading on veterans' issues. A 
national leader has referred to the Texas model when advocating 
for the integration of veterans' services. This integration 
allows the agency to remain veteran focused with no competing 
priorities.
    Some of the successes we have had. Last year, the Texas 
Veterans Commission received $11.5 million from DoL VETS to 
operate the Jobs for Veterans State Grants in Texas. With that 
investment, Texas Veterans Commission's Veterans Employment 
Services Program assisted veterans with obtaining long-term 
meaningful employment.
    In the most recent 12-month reporting period, our LVERs and 
DVOP specialists assisted over 69,000 veterans. Over 38,000 of 
those veterans obtained employment and earned a total of $1.4 
billion in wages. Two hundred and twenty-one veterans obtained 
employment.
    For every one LVER or DVOP specialist, Texas accounts for 
18 percent of the Nation's veterans entering into employment 
after receiving assistance from our staff while being allocated 
only seven percent of the federal funding from the Jobs for 
Veterans State Grants.
    In August, we became aware of anticipated changes to the 
LVER and DVOP specialist roles and responsibilities. While we 
appreciate DoL VETS' desire to improve the Jobs for Veterans 
State Grant programs, we must voice our concern regarding any 
policy changes that adversely impact our ability to serve the 
veterans of Texas.
    For example, DVOP specialists should not be limited to 
serving no more than 20 percent of the veterans in the 
workforce system and states serving more than 20 percent should 
not be placed on corrective action plans or face possible 
sanctions from DoL VETS.
    A complete list of those recommendations with which we have 
specific concerns have been provided on page 3 of my written 
testimony. I am happy to provide greater detail on these points 
if asked to do so following my opening remarks.
    Again, the Texas Veterans Commission is completely opposed 
to any recommended changes to the VES Program which would 
eliminate or even place limits upon our ability to see and 
serve veterans.
    How do we improve the current system across the Nation? It 
is not my intent through this testimony to simply present 
problems to this Subcommittee but to offer real solutions.
    The LVER and DVOP specialist programs were established to 
ensure services are received by veterans. The Texas Veterans 
Commission supports efforts to improve the effectiveness of 
this program in fulfilling that mission and submit the 
following five recommendations which I expand upon on page 4 of 
my written testimony but also are summarized.
    One, require that these programs utilize veterans serving 
veterans.
    Two, create supportive supervising structures for the 
programs.
    Three, reward performance.
    Four, require input from the states.
    And, five, encourage innovation.
    In closing, I would like to thank the Committee for the 
opportunity to share the perspective with you today. The Texas 
Veterans Commission has demonstrated the capability to have a 
positive impact on veterans' employment issues.
    With the support of the Committee, we believe that the VES 
Program in Texas can continue to develop for innovative and 
effective ways to improve the employment services provided to 
veterans in our State.
    Mr. Chairman, this concludes my testimony.
    Mr. Stutzman. Thank you.
    Mr. Turner, you are recognized for five minutes.

    [The prepared statement of Eliseo ``Al'' Cantu, Jr. appears 
in the Appendix]

                 STATEMENT OF ABRAHAM J. TURNER

    Major General Turner. Good morning, Chairman Stutzman and 
Ranking Member Braley and Members of the Subcommittee.
    My name is Major General Abraham J. Turner, retired. I 
serve as the executive director of the South Carolina 
Department of Employment and Workforce. I also serve as the 
chair of the Veterans' Affairs Committee for the National 
Associations of State Workforce Agencies, also known as NASWA.
    On behalf of NASWA, I am pleased to appear before you to 
discuss federal and state veterans' employment programs and 
their challenges.
    The members of NASWA are state leaders of the publicly 
funded workforce system responsible for meeting the employment 
needs of veterans.
    We thank the Subcommittee for legislation enhancing 
services for military members and veterans, their families, and 
also improving the transition of military members to civilian 
lives and careers.
    We also would like to thank the Subcommittee for their work 
to pass the VOW to Hire Heroes Act of 2011 which included the 
Veterans Retraining Assistance Program, VRAP.
    While states have done an extraordinary job reacting and 
adapting to the unprecedented challenges of our returning 
veterans, this hearing underscores the point that when federal 
and state governments work closely together, more can be done 
to improve the environment for our returning veterans.
    I have five points to address.
    First, while state workforce agencies are challenged by 
higher demand for services and diminishing funds, over the last 
five years, an additional 16 million jobs were made available 
to state job banks nationwide at no additional cost to federal 
and state government employers and job seekers through the 
National Labor Exchange, NLX.
    Second, because minimal information has been shared with 
NASWA and its members about the proposed policy directive 
expected to significantly change the job descriptions and 
responsibilities of the DVOPs and the LVERs, it is difficult to 
comment at this time.
    States believe that it would have been more efficient if 
U.S. DoL worked with NASWA and the states during the 
development of the policy directive.
    Third, states appreciate and strongly support the 
implementation of VRAP, but the primary difficulty in working 
with VRAP participants is that the Department of Veterans 
Affairs will not disclose the Social Security numbers of VRAP 
participants with the state workforce agencies.
    Social Security numbers are the primary identifier used in 
the workforce system to register, track, and to report 
services. The disconnect between the two systems make it 
difficult to track VRAP participants in order to ensure that 
they are offered the services of the one-stop system and to 
record outcomes.
    Fourth, state workforce agencies and the one-stop career 
center actively promote the VRAP to eligible veterans and are 
using a variety of methods to promote the program to veterans, 
local workforce investment boards, one-stop career centers, and 
employers.
    Most states have systems in place to contact all age 
eligible veterans who have registered for employment services 
with the State Workforce Agency.
    NASWA has promoted VRAP through presentations and 
information sharing at meetings of its veterans' affairs and 
employment and training Committees and to its board of 
directors.
    It has also conducted a webinar on VRAP, promoted VRAP in 
its primary publication, and provided information on a linked 
in forum for state veterans' coordinators.
    Finally, I am concerned the workforce system has little to 
no role in the VRAP Program other than to promote it. The 
workforce system is not engaged with VRAP until the veteran 
completes the training and is looking for employment.
    I respectfully request this be examined to better include 
the state workforce agencies earlier in the process.
    Now, although I have expressed some concerns, I want to 
make it clear that states strongly support VRAP. This program 
provides a second opportunity to bring veterans into the 
workforce center who may have otherwise been lost to an 
environment of long-term unemployment.
    Our veterans deserve this additional opportunity to succeed 
at job placement and VRAP is a program that does just that. 
VRAP puts veterans back to work.
    I am pleased to have had this opportunity to testify and 
would be happy to take any questions.

    [The prepared statement of Abraham J. Turner appears in the 
Appendix]

    Mr. Stutzman. Thank you, General Turner.
    At this time, I believe we have the video and if it is 
ready, go ahead and start the video.
    [Video shown.]
    Mr. Stutzman. Okay. Thank you.
    General, a question on the video. You have that on your Web 
site or how do you use the video and what kind of success have 
you seen with it, what kind of feedback?
    Major General Turner. Yes, Mr. Chairman. The video is, in 
fact, on our Dew, D-E-W, Web site. The Web site was listed at 
the very last five seconds of the video there that anyone can 
go to and actually access it.
    We use it also in marketing send-outs, mail-outs that we 
have to our veterans and also in all of our work centers with 
flyers at all of our work centers throughout the State.
    Mr. Stutzman. Very good. I do want to start the 
questioning. At this time, we will recognize each of the 
Members for five minutes for questions, and I will start with a 
question for Mr. Cantu and Mr. Turner, for both of you.
    It is our understanding that in a meeting with NASWA, VETS 
discussed several possible changes to the Jobs for Veterans 
State Grant Program that funds the DVOPs and LVERs.
    Could you please list the ideas that were presented by VETS 
to you? And why don't we start with Mr.--General Turner, why 
don't we start with you, then Mr. Cantu can answer.
    Major General Turner. Yes, Mr. Chairman. With respect to 
the ideas to address the issue with the LVERs and DVOPs, when 
we surveyed or canvassed the states and got the replies from 
the majority of the states here in our union, the replies 
varied from ensuring that there was a clear understanding with 
respect to what the new expectations would be from LVERs and 
DVOPs as pertains to placing these vets as they come through 
the program.
    We have not received the directive, a published directive 
as of yet. So right now many of the states are still having to 
deal with, I guess, points that have been shared through the 
DVETS at the state level to gain a clearer picture as to what 
the policy will exactly mean.
    There are some questions about the 80/20 percent rule that 
was a part of it with respect to whether or not DVOPs should 
handle 80 percent of the veterans coming in or should they 
instead handle only 20 percent of the total population that is 
coming through our workforce centers.
    So there is some uneasiness with respect to exactly where 
is the policy going with this. So as you can imagine, some of 
our LVERs and DVOPs are also members of our business section 
teams throughout the states in the workforce agencies. Some 
states do not have business section teams.
    So where the LVERs are, in fact, a part of these business 
section teams, they have an additional responsibility to not 
just reach out to businesses at large but also reach out to 
those businesses that are focused directly on hiring veterans.
    Mr. Stutzman. So did VETS discuss possible changes in this 
meeting that you know of?
    Major General Turner. At the meeting that I have attended, 
there were possible changes discussed. But, once again, we 
operate on the actual published policies that are coming out 
and there was some discussion that we had with VETS.
    Mr. Stutzman. What kind of discussions? What kind of 
changes were even discussed?
    Major General Turner. Well, one of them was the one I 
mentioned just now with respect to what is the percentage of 
workload that the LVERs and the DVOPs would actually have to 
assume as we move into the new year. That was one significant 
one that caught our attention.
    Mr. Stutzman. Okay. Mr. Cantu.
    Mr. Cantu. Yes, sir. One of ours was exactly the 20/80 
rule. We do not feel that we should be limited to doing that, 
that we ought to serve as many veterans as we possibly can 
because it is our mission and our goal in Texas to ensure that 
they have access to our DVOPs and our LVERs to ensure that 
their problems and issues, concerns are taken into effect.
    We feel that in order to serve our Nation's heroes, placing 
limitations on the number of veterans that can be seen by our 
staff adversely impacts those veterans' ability to locate and 
retain long-term employment.
    Also, you know, our DVOP specialists will be limited to 
strictly case management activities and will not provide 
service to veterans, not enroll into case management. You know, 
we do not concur with that.
    In Texas, a non-Veterans Employment Services workforce 
staff of our partners at the Texas Workforce Commission have 
budget challenges of their own and assumptions that the 
veterans' population can be seamlessly absorbed by these 
partners is overly optimistic.
    The initial assessment for veterans' need is an extremely 
important function and it includes a one-on-one in-depth 
evaluation to identify those significant barriers to employment 
and plan to address their needs.
    This assessment should be conducted by Veterans Employment 
Services' staff whenever possible. Its VES staff are specially 
trained to identify those barriers in Texas. All VES staff 
members are veterans themselves and there is intense value in 
veterans being served and assisted by fellow veterans, 
providing good quality one-on-one service.
    Mr. Stutzman. Okay. I guess, you know----
    Mr. Cantu. And----
    Mr. Stutzman. Go ahead.
    Mr. Cantu. And point number three, sir, our LVERs will not 
serve veterans. They will only be allowed to perform employer 
outreach.
    Title 38 USC Code 4102 clearly states that one of the 
priorities of a LVER is to assist recently separated veterans 
along with outreach to employers. Employer outreach is a vital 
part of the employment equation.
    And Texas has embraced this by focusing four of its LVERs 
on employer outreach as veterans' business representatives, a 
change that was difficult to get DoL AD to embrace. Yet, we 
know that locating employment opportunities only fills half of 
the need.
    Moreover, this change severely impacts rural areas and 
simply moving a LVER into a DVOP specialist role is not the 
answer.
    Number four, the performance expectation for the employment 
and retention rates for recently separated veterans will be 
removed. The Veterans Employment Service programs at TVC is 
dedicated to helping any and all veterans with an emphasis on 
recently separated and disabled veterans.
    The national unemployment rate for Gulf War II era veterans 
has remained over ten percent for 27 of the past 36 months, 
peaking at 15.2 percent in January 2011. Now is not the time--
--
    Mr. Stutzman. If I could hold you off right there because 
my time is expired there.
    Mr. Cantu. Yes, sir.
    Mr. Stutzman. Let's proceed to further questions from Mr. 
Braley and we will come back around and discuss it shortly.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    General Turner, I want to start by commenting on the video 
and I want you to tell Mr. Byrd that whatever you are paying 
him, it is not enough because it was very impressive.
    Major General Turner. Thank you very much.
    Mr. Braley. The way he laid out this program in plain 
language that the average listener can understand. And that has 
been a huge priority of mine with all federal agency programs. 
So please send him my compliments.
    Major General Turner. Will do, sir.
    Mr. Braley. One of the comments you made caught my 
attention and it dealt with VRAP participants and the challenge 
you were facing because of a failure to disclose Social 
Security numbers making it difficult to track those 
participants.
    What have you been told was the justification for that 
policy? Is this an identity theft concern or how do we address 
the intra-operability challenge that you are facing so that you 
can track these veterans and give them the services that they 
have earned and that they deserve?
    Major General Turner. Yes, sir. Our biggest concern with 
respect to not having the Social Security numbers is that we 
are unable to identify the veterans at an earlier stage of the 
process that they are going through under the VRAP.
    I do not have any rationale nor have I been given any 
rationale for not providing the Social Security numbers, but I 
can tell you, sir, that if we continue to only engage with 
veterans at the conclusion of the VRAP process, then our 
chances have been lessened to ensure that the skill sets that 
have been acquired by the veteran undergoing the program, we 
have lessened our opportunities to match those skill sets up 
with jobs that are available at the local area.
    Our point is that we can best identify what jobs are 
available, what skill sets are in demand earlier with the 
veterans in the program to ensure that they are actually moving 
along the correct training route, so to speak, to meet those 
demands.
    The worst thing that can happen is to have a veteran go 
through the program, achieve a skill set, and then at the lower 
level in this region of any state within the union show up to a 
job that is not available in that skill set.
    What we want to do is engage earlier. We want to know who 
the vets are. We want to know what direction they are headed in 
so we can help guide them into the right job development skill 
sets that is required.
    Mr. Braley. Thank you.
    Major Cantu, you mentioned something about the impact on 
rural areas in your testimony.
    Mr. Cantu. Yes, sir.
    Mr. Braley. I want to talk to you briefly about that 
because I represent a district that has large rural areas and 
also urban areas.
    And my experience is that the employment challenges differ 
significantly depending upon what part of the country you live 
in and whether or not the employer workforce has a higher 
degree of sophistication in terms of identifying workforce 
needs of returning veterans and how they incorporate their 
military occupation specialties into a civilian job.
    So when you talked about that disproportionate impact on 
rural areas, can you give us some examples of how that plays 
out in your world?
    Mr. Cantu. Well, as you know, sir, in Texas, we have wide 
open spaces and a lot of concentrated population in certain 
areas. And what we do, our workforce is evaluated on an annual 
basis and see where the veterans' population is, if you will, 
or where it moved to or shifted. And we make plans and 
contingencies to service those areas by allocating resources, 
LVERs and DVOPs to those particular rural areas.
    In the big cities like or big bases like Fort Hood, Texas 
in Killeen, Fort Bliss in San Antonio, we got that covered 
pretty well. But the difficulty in outreaching to those 
veterans in those rural areas is a challenge that we face each 
and every day, but we make it a point to have DVOP and LVERs in 
the general area to support their needs.
    Mr. Braley. I think one of the things that is often lost on 
the American people is that a disproportionate share of our 
military comes from rural America, but it is not met by a 
disproportionate share of services in those rural populations. 
So I appreciate your comment.
    Mr. Moran, you made a comment early on in your testimony 
there has been a lack of mission clarity.
    Can you tell us what needs to be done to clarify the 
mission so that we can address that concern?
    Mr. Moran. Yes. Thank you for the question.
    As we undertook a policy review recently, as you are 
hearing about today, we were mindful that we have 1.5 million 
separating servicemembers coming at us over the next five years 
or so.
    We also have many of those folks who will be coming back 
because of advances in medical treatment with severe injuries 
and they are going to need extra employment assistance and 
help.
    We see the purpose of the JVSG Program to be for that 
specific cadre of veterans, not all veterans, but that specific 
cadre of veterans.
    So we undertook this policy review to see if we are 
prepared, in fact, with our current policies and with our 
current population of DVOPs to handle that load.
    We saw some data that indicated that perhaps we are not and 
we attributed that to the fact that we may not have mission 
clarity in our policy guidance currently in place.
    We have issued policy guidance in 2010 most recently on the 
JVSG Program that gets at exactly defining the roles and 
responsibilities of DVOPs and LVERs. However, that policy 
guidance is not producing the result that we think is needed in 
the program.
    So this policy review is about examining that policy to see 
what we need to do to strengthen it, to make it more clear, to 
get all of the DVOPs and LVERs focused back on the roles and 
responsibilities as defined by Title 38 and as defined by our 
policy guidance in 2010.
    Mr. Braley. And what is your expectation in terms of a time 
frame when that clarified mission would hopefully be achieved?
    Mr. Moran. Well, we have been working on this policy 
guidance and by no stretch is it done. As you have heard from 
testimony today, we have discussed at various points in time 
some of the observations we have had, some of the policy 
discussions that are ongoing, some of the things that we are 
looking at doing.
    We have not finalized the policy yet, but we would expect 
that by the end of December, we would have a new policy out on 
this.
    And I should qualify it is really not a new policy. It 
really is going to be about strengthening the policy that 
already exists on what the roles and responsibilities are for 
DVOPs and LVERs.
    Mr. Braley. Thank you.
    I yield back. Thank you.
    Mr. Stutzman. Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    And I appreciate the question of my colleague about rural 
areas and some of those opportunities.
    The gentleman in Texas, if I might follow-up a little bit 
more. In my district, very low unemployment, difficulties 
finding workers to fill those jobs in a rural area.
    What do you do in Texas and perhaps region-wise for the 
rest of the witnesses when the jobs are not where the veterans 
are currently?
    Mr. Cantu. Yes, sir. We certainly face a challenge there 
because, you know, it may require the veteran to relocate if, 
you know, that is the job that he has been offered and wants.
    And it is difficult. We try to do everything we can with 
our LVERs as they intermingle and talk to potential employers 
at job fairs. We encourage that they seek employees from areas 
that are rural that may have a spattering of jobs, not the 
full-blown complement.
    And we also let the veteran know that if there is anything 
that we can do to help him relocate, you know, we will do that. 
And that is why our fund for veterans' assistance that we 
provide, we have provided almost $30 million from about a year 
and half, two years ago to veterans that need funding, need 
assistance, relocation, those type of things.
    So we constantly work and we constantly look at those areas 
and just attempt to match a veteran in an area with a job that 
is readily available in some distance, maybe some distance from 
his location.
    Mr. Huelskamp. I appreciate that.
    And a question for Mr. Moran, if I might. Again, what is 
the unemployment rate for veterans?
    Mr. Moran. When we talk about veterans in general, the 
unemployment rate right now is 6.3 percent as reported by the 
Bureau of Labor Statistics.
    Mr. Huelskamp. And are there categories in which it is--
that is obviously substantially lower than the nationwide 
average--are there categories in which it is higher?
    Mr. Moran. There are. In fact, one of the categories that 
we have a strong eye on is the Gulf War II veterans as we call 
it. And that unemployment rate right now is at ten percent.
    Mr. Huelskamp. And do you have different strategies for 
those particular categories of unemployed veterans?
    Mr. Moran. Certainly it really comes down to getting the 
word out to all veterans no matter what category they are in 
that we are here to serve them at the American job centers and 
trying to encourage them to come in if they need employment 
assistance.
    When they come into that service center for that 
assistance, we assess their needs depending on whether they are 
Gulf War II or they are not, what is their need that will help 
them get to employment. And then we work with them accordingly.
    Do we have special programs targeted at those particular 
groups? Outside of the Gold Card, for example, that provides 
additional services for a six-month long-term plan, that is 
pretty much the only special program we have for the Gulf War 
II era veterans.
    Mr. Huelskamp. So can you explain why it is substantially 
higher than the rest of the veterans? Do you have a quick and 
ready explanation for that?
    Mr. Moran. I do not.
    Mr. Huelskamp. Other witnesses, any explanation or any 
strategies to deal with that? Again, we are at 6.3 percent 
which is very good, but then we have significantly higher in a 
particular category of post-9/11 veterans.
    Mr. Deabay. Yes, sir. Shawn Deabay from the Texas Veterans 
Commission.
    The translating of military skills into civilian occupation 
is one of the largest challenges. In Texas, we take a look 
every year of where are our disabled veterans and our recently 
separated veterans or Gulf War era II. Where are they at? And 
we strategically locate our Veterans Employment staff to handle 
that situation.
    So what we have done, we try to outreach those recently 
separated veterans. We are working with the TAP Program, 
identify them, get them to come see us. I think to know that we 
are here to help them gets over-sighted.
    A lot of veterans do not know we are here, so it is to get 
the word out, serve as many veterans as we can, keep a high 
quality, and locate our staff where they are best served.
    And the unemployment rate for recently separated veterans 
along with women veterans is an issue that we face.
    Mr. Huelskamp. Yeah. I appreciate an answer to that.
    Follow-up a little bit more, just a question. DoD, they do 
not inform the veterans of your services? What is the 
connection there when they are separating?
    Mr. Deabay. Well, when we provide the TAP services, we are 
able to make sure that they know where we exist. Starting in 
January, we will not be facilitating TAP anymore. It will be 
going to a private contractor. And I have not been contacted by 
any of them to offer our assistance. But we are going to 
continue to work and try to let as many veterans know.
    I cannot answer exactly why they do not know we are here, 
but what I am hearing from my LVERs and DVOPs, I have about 170 
of them, is that they do not know we are here to help them.
    Mr. Huelskamp. That kind of defeats the purpose. I would 
like to find some strategies to actually communicate the 
efforts here and it is some tremendous effort. So I appreciate 
it.
    I yield back, Mr. Chairman.
    Mr. Moran. If I could add, I think it is important to add 
that one of the things that we are working on to address that 
is what I testified to a little bit ago and that is an enhanced 
outreach strategy and going from one touch point essentially at 
the DoL employment workshop during TAP to four touch points to 
try to get everybody to understand earlier in the process what 
services are available, how to take advantage of those 
services, et cetera.
    So we are working on that. We are trying to reach out 
better than we have in the past.
    And I would also add that even though we are transitioning 
to all contract facilitators in the TAP Program come January, 
which is part of the VOW Act requirement, we do during that 
course spend a lot of time on talking about the American job 
centers, what they can do for you, how to register at those 
American job centers, et cetera. So we are working the problem, 
sir.
    Mr. Huelskamp. All right. Thank you.
    Mr. Stutzman. All right. Thank you.
    Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman. And I would like 
to also congratulate you and the ranking member and all Members 
on your reelection. And I can say that with the two of you on 
this Committee, our veterans are well served by that outcome 
also. I am very proud to serve on this Committee and you have 
done a fabulous job.
    Thank you for each of you for the work you are doing. We 
are gratefully appreciative of that.
    Mr. Deabay, I could not agree with you more. Mr. Denham and 
myself authored up the Veterans Skills to Job Act that passed 
and was signed into law by the President. The next step now is 
to do that at the state level.
    Mr. Stivers and myself have a bill, Hiring Heroes Act, that 
does basically the same thing of translating those skills and 
those certification programs at a broader level to the states. 
So I am appreciative of you hitting on that. I think that does 
get at where Mr. Huelskamp was.
    And we are spending $106 billion a year in training these 
folks. They are our best and brightest and let's translate that 
in. It saves unemployment benefits. It puts them in the jobs 
they want and are well qualified for. So thank you for that.
    Mr. Coy, I am going to come to you and I think Mr. Braley 
hit on something. If you did not spend the last couple months 
and hear a lot of things, I hope we were not all talking during 
the election season. If you were listening, you heard a lot of 
things.
    And I heard a lot. Processing times on the GI Bill has 
reached the crescendo. It is worse than I have seen it, Mr. 
Coy. And the numbers, I have an article from Stars and Stripes 
that graphically kind of shows that we are peaking on that.
    I just checked just randomly. University of Wyoming lists 
on their site expect a ten-week delay, North Carolina State, 
ten-week delay, College of Charleston, eight to ten-week delay.
    I have gone to my colleges and asked them for patience. We 
have got 58,000 people as of November 2nd waiting for payments. 
That means September rent, October rent, November rent, 
tuition, books, living expenses not there.
    I know we have more there. I know that we have a great bill 
that you advocated for yourself in the post in Chapter 33. 
People are using it and that is good.
    I guess just my question is, I did not--and I know I say 
this. I know there are some things that it takes time on this. 
Myself using the GI Bill, it was six months. That was 1982. The 
expectation should certainly be improved processing times, some 
way to front load this thing, that we do not have people being 
evicted or not paying for gas to get to class.
    And so I am just throwing it in your court to what is the 
plan to break this thing? And, again, I say that because I have 
been up here on the claims processing side on VBA's side and 
that is gone there. So I throw that to you. It is a big one. I 
know that you care deeply about this. I just kind of want to 
know what the plan is.
    Mr. Coy. Thank you very much, sir.
    And we certainly understand that frustration as well. We 
understand the hardship it provides and imposes on our vets. 
And we are working incredibly hard, including weekends, 
overtime.
    And today we have paid over 87 percent of those folks in 
our fall enrollment. As I mentioned in my oral testimony, we 
have received over 690,000 enrollment documents, 280,000 
changes to those for 475,000 individuals. Clearly it is growing 
the number of people.
    The success of the Post-9/11 GI Bill has been overwhelming. 
And it has been a wonderful benefit to our veterans. And we 
certainly are challenged in processing those claims. It is 
currently taking anywhere from 36 to 40 days to process that 
claim and we are working very hard to get through that.
    One of the things that we think is going to show great 
promise is our long-term solution. We launched on 24 September 
an automation for those supplemental claims. Supplemental 
claims are those claims that actually pay our veterans their 
housing allowance.
    So far, we have seen from about 24 September until now 
about 30 percent of those supplemental claims goes through the 
system completely untouched by human hands.
    If we had not have turned that on on 24 September, we 
probably would have seen an increase of about six days of the 
average processing time.
    We have gotten through the big crunch of claims so far. All 
of the claims that we received in August and September we 
processed, but we continue to get claims every single day.
    I checked the numbers this morning. We received over 14,000 
claims yesterday alone. And so we are processing through these 
claims. We understand it is a challenge. It is equally 
frustrating for us. We think we have gotten through the lion's 
share of it.
    We think going forward, we are going to have our automation 
in place. We did not get this automation in place until 24 
September. We are going to have that as we go forward. We are 
watching the numbers.
    Mr. Walz. Mr. Coy, if I could ask, when we did this in 
2009, we anticipated that this was going to happen. Did we not 
anticipate the need to automate from 2009 to 2012?
    Mr. Coy. I am sorry?
    Mr. Walz. I am just curious that being here through this 
whole process, this is a unique one for me. From the advent and 
the writing of this bill to the concern on implementation, I 
remember sitting here in 2008 when we were doing this worried 
about our processing ability and we are doing it.
    So when we come back around again, I am just going to ask 
for maybe some stop gap ways we can help some of these people, 
whether it is no interest loans or some ways that we coordinate 
because I do have veterans that come to my office in southern 
Minnesota saying I cannot make rent for November, what do I do.
    A lot of times, it is out of the goodness of the schools or 
the landlords to say, well, we will cover you until the check 
comes in. I do not think that is the way the government should 
treat either a private landlord or a school.
    So I will come back around again, but I do appreciate the 
work you are doing.
    What I am getting at here is, do we have the resources to 
do this? Are we back in one of those situations again?
    I have no doubt that your people are working as hard as 
they can and doing the best they can, but it is just not 
getting it. So we will come back around again.
    Mr. Stutzman. Okay. And I would like to just interject. Mr. 
Coy, if you could provide this Committee an updated briefing on 
the IT program that you are working on, is that--by the end of 
the year?
    Mr. Coy. Absolutely. Yes, sir.
    Mr. Stutzman. Okay. All right. Thank you.
    Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Thank all of you for agreeing to testify today to help the 
Committee understand these important issues.
    Chairman Cantu, you mentioned recommendations in your 
opening testimony, opening comments about improvements that the 
Veterans Employment Services could make.
    Can you elaborate on some of those? I think you could not 
elaborate before because of the limited amount of time in your 
opening comments.
    Mr. Cantu. Yes, sir. There are five basic recommendations 
that, you know, we come up with that will make this a viable 
program that we can all agree on and work in helping veterans.
    One is require that veterans serve veterans. Every LVER and 
every DVOP specialist must be a veteran. This requirement was 
part of legislation approved by the House of Representatives 
earlier this year and must be incorporated into the Jobs for 
Veterans State Grants.
    Number two, create supportive supervising structures. While 
each State must have the ability to determine the supervising 
structure that works for the State, DoL VETS should require the 
coordination and reporting for the Jobs for Veterans State 
Grants directly to the senior executive responsible for the 
grant in the State.
    Moreover, depending on the size of the Jobs for Veterans, 
it might be the only program that person is responsible for. 
The Jobs for Veterans State Grant and serving veterans deserves 
no less.
    Number three, reward performance. Instead of focusing on 
dictating what states can do, DoL VETS should work with the 
states to develop meaningful performance standards and add a 
performance element to the funding formula, that states that 
perform at a high level should receive increased funding rather 
than punish the states that do a good job and reward those that 
do not.
    Number four, require input from states. The policy changes 
being contemplated by DoL VETS were not developed in 
partnership with the states. DoL VETS should be required to 
have working groups, small, medium, and large high performance 
states. The focus of this working group would be on how all 
states can improve employment and services to veterans and 
provide recommendations to DoL VETS with a focus on best 
practices.
    And, finally, number five, encourage innovation. DoL VETS 
must allow states to be innovative and create methods to serve 
as many veterans as they can while continuing high quality.
    When Texas wanted four of our LVERs to serve as veterans' 
business representatives and work with employers, DoL VETS 
resisted this change which they now embrace. DoL VETS should 
not be placing limits on the service that states provide 
veterans or choosing which part of the law governs those 
programs believe are more important than others.
    Those are the five basic recommendations.
    Mr. Flores. Okay. So in nutshell, one of the things I 
picked up is that state agencies like yours because of the fact 
they are closer to the veterans' communities that are similarly 
situated are going to be much more responsive in terms of 
designing these programs to deal with this issue; is that 
correct?
    Mr. Cantu. Yes, sir.
    Mr. Flores. Okay.
    Mr. Cantu. If I might add, you know, we are all 
incorporated under one umbrella. Shawn Deabay is responsible 
for employment services. That is his only focus, his only 
requirement. And he has the knowledge that if a veteran needs 
claims and counseling, his counterpart in the office is the 
director of that area or funding or whatever it might be. You 
know, we work with each other and we are right centrally 
located where we can advance the needs of that veteran. The 1.7 
million veterans in Texas, you know, are served well by the 
Texas Veterans Commission.
    Mr. Flores. And one of the things we talked about today is 
this Washington produced one size fits all policy. Can you tell 
me what the new policies will do? How will it directly affect 
Texas and the TVC?
    Mr. Cantu. Well, you know, as mentioned earlier, we have 
some concerns about that and the way it works. And, again, you 
know, we just feel that veterans should be serving veterans, 
that there be no placement or restrictions on the number of 
veterans that we can see that is in the workforce system.
    And, you know, we do not want the 20/80. I mean, if we can 
see a hundred percent or 95 percent and do a good job, that is 
what we want to do. And that will impact our Texas veterans 
because we certainly are proactive in veterans' benefits in the 
State of Texas and we want to keep that from limiting us on 
seeing veterans.
    We want the DVOPs to do case management. You know, we want 
the LVERs to get out in the field and talk to potential 
employers and sell their veterans, their skills.
    The skill sets between a LVER and a DVOP are different, but 
we want to make sure that the employer understands that our 
military veterans that come out of service, we can translate 
their skills to their needs and, you know, we want to continue 
doing that.
    And I think that this proposed change could possibly impact 
us in accomplishing those goals.
    Mr. Flores. Thank you, Chairman Cantu.
    I yield back.
    Mr. Stutzman. Thank you.
    I would like to do a second round of questions for those 
who have questions. And I would like to start with Mr. Moran 
following up to the questions that I had asked.
    You know, I understand these changes that have been either 
made or suggested or they are still in the formative stage, but 
what are the basic suggestions or the changes that are coming 
to the JVSG Program that you have proposed to the states?
    Mr. Moran. Yes. Thank you for the question.
    Primarily the essence of the proposed policy changes, and 
as you have pointed out, are not finalized yet, we continue to 
work to make sure we get this right, have to do with ensuring 
that the DVOPs are performing the defined role that they have 
in the law which is to serve those veterans who have barriers 
to employment.
    Now, there is, of course, in the law a list of specifics to 
that, but essentially we call that significant barriers to 
employment. That has to do with disability, economically 
disadvantaged, educationally disadvantaged.
    We want to make sure that the few DVOPs that we have in the 
system for that purpose are available to give a hundred percent 
of their time to that subcategory of veterans who are seeking 
employment assistance.
    Right now what we see is that that is not the case. In 
fact, we find that only about 25 percent of the intensive 
services are being provided by DVOPs or I should say 25 percent 
of veterans being seen by DVOPs are getting intensive services 
when, in fact, if you follow the logic behind the law and the 
job description, a hundred percent of the veterans seen by 
DVOPs should be getting intensive services. It almost flows by 
definition.
    So we see that as a flag that causes us some pause and 
thought that we needed to examine the policy. Are they, in 
fact, the DVOPs doing the job the law intends them to do and 
our policy requires them to do?
    On the other side of the equation, the LVERs, the law is 
very specific about their duties as well and it is to perform 
outreach to the community to cultivate job opportunities. 
However, we found data that suggests that the LVERs are 
essentially acting as DVOPs. They are providing individual 
services to veterans for employment. It wasn't envisioned by 
the law as we understand it, so, again, gave us pause to look 
at the policy to make sure that we have it right.
    With respect to the 80/20 issue that has been brought up, 
what we have said is that when we look at the data, when we 
look at the system intuitively, we project, and that is all it 
is, it is not a requirement, it is not a rule, it is nothing 
beyond a projection that tells us that if we follow our 
policies that already exist, never mind new policy, if we 
follow the policy that already exists that we expect that out 
of a hundred veterans walking into any American job center 
looking for employment assistance, approximately 20 of those 
veterans will be handled by a DVOP because they meet the 
definition of significant barrier to employment and need that 
extra special 100 percent care while 80 percent of those 
veterans just need some basic job services which are provided 
through the Wagner-Peyser and WIA part of the workforce system.
    That is what the law intends. That is why the law describes 
a system of priority of service in the WIA and Wagner-Peyser 
Program. It is to serve those veterans who are not envisioned 
to be served by the DVOPs.
    So our whole policy is really around making sure that 
everybody understands the roles and responsibilities of the 
DVOP and LVER.
    What we anticipate that would look like in terms of 
workload, which is where this 80/20 notion comes in, it is not 
a hard and fast rule, it is a planning norm, and to make sure 
that we are ready to handle the 1.5 million who will be coming 
back at us over the next five years. We have to have the system 
tuned properly to make sure it is ready to handle that load.
    Mr. Stutzman. Mr. Coy, if you could--I am sorry. Mr. Coy, I 
wanted to follow-up on a question or one of the comments that 
Major General Turner had mentioned regarding Social Security 
numbers and tracking. And this will be both for Mr. Coy and for 
Mr. Moran.
    But are you or how are you going to solve the issue with 
Social Security that is creating problems in tracking the VRAP 
participants?
    Mr. Coy. Thank you for the question.
    First I want to congratulate General Turner on his video. 
We are going to download that and plagiarize it quite frankly. 
So congratulations.
    I will tell you, sir, that I am not aware of the Social 
Security number issue. I am taking that back with me. We are 
going to work that diligently.
    Whether or not we provide all of those Social Security 
numbers to DoL and they find a way through their contracts to 
get it to their DVOPs and LVERs or if we do it some other way, 
there are certainly security concerns, and I think that is the 
very first issue that we need to address.
    But it is the first time it has been brought to my level 
and you have my pledge that we are going to work this through.
    Mr. Stutzman. Okay. Thank you, because I would agree. I 
mean, I think if there is another way besides using even Social 
Security numbers, it seems like that would even be--makes more 
sense.
    Mr. Moran, any comment?
    Mr. Moran. We would be more than willing to work with the 
VA and NASWA to make that happen. One of the things that we do 
have on our plate, in fact, is to work with DoD and perhaps VA 
on sharing data better than we do today for a variety of DoL 
purposes. And this would be, I think, added to that equation.
    Mr. Stutzman. Okay. Thank you. I hope that will help start 
the dialogue.
    Mr. Braley, any further questions?
    Mr. Braley. No.
    Mr. Stutzman. Mr. Walz has left.
    Mr. Flores?
    Mr. Flores. Thank you, Mr. Chairman. Also, thank you for 
allowing me to participate in the Subcommittee hearing today.
    Just one quick question. This is more for Mr. Moran. I 
mean, we have learned a great deal from what Chairman Cantu had 
to say today and also from General Turner's testimony.
    Will you commit to this Subcommittee that you will take 
this back and address the issues that were raised today?
    Mr. Moran. Absolutely. You have my commitment on that.
    And I have learned a few things from the letters we have 
received from the various states. In fact, we have received 
four letters from states, 75 percent of which have indicated 
that they agree with the direction we are heading.
    In fact, Mr. Braley, your state is one of them. We want to 
hear from the states. We want to continue to receive the input. 
A lot of that we get through NASWA and we are going to reach 
out and make sure that we get this right. That is the important 
thing, that we are positioned to serve these veterans well and 
we want to make sure it works for everybody.
    Mr. Flores. Thank you.
    I yield back.
    Mr. Stutzman. Okay. Thank you.
    I want to just in closing remarks mention that Mr. Coy had 
mentioned the revised TAP Program. I want to make one point 
about the new version of TAP, if I could.
    By not including what are described as the optional tracks 
as part of the mandatory participation program, I believe that 
we are short-changing about roughly 50 percent of the 
participants who indicate their intent to use their GI Bill 
benefits to attend school.
    At a previous hearing, we had showed how the benefit could 
be worth more than $140,000 and that failing to include 
detailed information on how to make best use of that very 
generous benefit in the mandatory program is an example of 
government waste that I find inexcusable.
    I thank today's witnesses for your testimony.
    I do not know who was responsible for selecting South 
Carolina and Texas, but they are very close to my heart. My 
wife is from South Carolina and my grandparents are laid to 
rest in Texas along with other family members who still live in 
Texas.
    So thank you to both of you, Mr. Cantu and Major General 
Turner, for being here.
    Clearly our veterans do face great challenges coming back 
and we have a responsibility to make sure that we are prepared 
and ready to help them and making sure that we are 
communicating correctly and responsibly. I believe that 
communication is a big part of taking care of a lot of these 
problems. So I would encourage that wherever it is needed.
    Finally, I ask unanimous consent that all Members have five 
legislative days in which to revise and extend their remarks 
and include any extraneous material on today's hearing topic. 
Without objection, so ordered.
    I thank everyone for their attendance today, and this 
hearing is adjourned. Thank you.

    [Whereupon, at 11:21 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Marlin Stutzman, Chairman

    Good morning. First, let me extend a sincere welcome back to the 
Members of the Subcommittee on Economic Opportunity. All of our Members 
on both sides of the aisle won reelection, and I am glad our team will 
remain intact because, in my view, we have done good bipartisan work 
together and I want to express my special appreciation to our Ranking 
Member, Mr. Braley, in that regard. But, our work is not finished.
    It is hard to pick up a newspaper or access a news Web site that 
does not have a story about the difficulties facing veterans who are 
returning to the civilian workforce.
    As a result, even though the overall veteran unemployment rate is 
lower than the non-veteran rate, in some segments of the veteran 
workforce, younger veterans are having a more difficult time finding 
employment than non-veterans.
    Unfortunately, most of the information we read or hear is anecdotal 
with little hard data to suggest ways Congress can lower those rates. 
For example, BLS staff will state that data on the rates for veterans 
in the 18-24 age group is soft because of a small sample size.
    For example, in many states, a veteran attending school full time 
under the Post-9/11 GI Bill can also draw unemployment benefits and be 
counted as unemployed.
    I am not suggesting that is inappropriate. Rather, noting that it 
is a factor in calculating unemployment rates.
    I would say that the centerpiece of our work in the 112th Congress 
was passage of the Veterans Retraining Assistance Program as part of 
the VOW to Hire Heroes Act. As of November 13, VA had received nearly 
75,000 applications and approved 62,295. That is great progress towards 
filling all 99,000 slots provided in the legislation, but I am somewhat 
concerned about the slow enrollment rates and we will discuss that 
during questioning.
    Let me also express my great appreciation to Curt Coy for the 
energy and professionalism he has displayed in implementing VRAP. I am 
told you were a bit under the weather for awhile and so I am doubly 
pleased to see you back.
    Before I recognize the Ranking Member, I would like to emphasize 
that we rely on the Executive Branch for answers that will assist us in 
forming future legislation. To that end, in the invitations sent to VA 
and VETS, we have asked them to answer several questions in their 
testimony centering on the outcomes of those completing their 
vocational rehabilitation plan and the Veterans Retraining Assistance 
Program or VRAP.
    With that in mind, I find the Department of Labor's response, or 
should I say non-response to our request for their intentions regarding 
the utilization of the DVOPS and LVERs totally unhelpful and 
disappointing. What we have been told you are proposing are significant 
changes, and it is this Subcommittee's responsibility to ensure that 
the taxpayer resources are spent in accordance with the law.
    I look forward to hearing the answers and I now recognize the 
distinguished Ranking Member.

                                 <F-dash>
 Prepared Statement of Hon. Bruce L. Braley, Ranking Democratic Member

    I'd like to take this time to congratulate you on your re-election 
and as well as the rest of our Subcommittee colleagues. Hopefully, now 
that the elections are behind us we can move forward with addressing 
the challenges facing this nation.
    Today we have the opportunity to conduct a hearing to review two 
important veterans employment programs, the Veterans Re-training 
Assistance Program, passed under the VOW to Hire Heroes Act (Public Law 
112-56), and the Jobs for Veterans State Grants program. These two 
critical programs are dedicated solely to the employment, re-
employment, and training of veterans.
    The Jobs for Veterans State Grants program is a non-competitive 
grant program offered by the Department of Labor's Veterans' Employment 
and Training Service office to support the Disabled Veterans' Outreach 
Program Specialists (DVOP) and Local Veterans' Employment 
Representatives (LVER). The purpose of this grant is to help veterans 
find employment or obtain training services when necessary.
    The VOW Act made some significant changes to the Jobs for Veterans 
State Grants program, among them, it clarified the priority of service 
for veterans in job training programs, required final exams for DVOPs 
and LVER's at the end of their training and modified the role DVOP and 
LVER staff. I think it's only appropriate, since it's been nearly a 
year since the enactment of this act, that we are updated on the status 
of VRAP and the Jobs for Veterans State Grants program following the 
new policy.

                                 <F-dash>
                  Prepared Statement of Hon. Tim Walz

    I am very pleased with everything the members of the Committee have 
accomplished this session. I am also pleased to see the progress the 
Department of Veterans Affairs has made in implementing the VOW to Hire 
Heroes Act. However, I am concerned with trends regarding the 
processing of the Post 9/11 G.I. Bill.
    As a teacher, I firmly believe that receiving a good education is 
one of the most important determining factors for economic success. As 
a retired Command Sergeant Major, I understand the best tool we have 
given our veterans to achieve economic prosperity is the Post 9/11 GI 
Bill. The new G.I. Bill is crucial for sending our new generation of 
veterans to higher education institutions. But for some veterans, the 
exceedingly slow delivery of VA education benefits payments is causing 
an unexpected and unacceptable financial burden.
    According to the VA's backlog Monday report for the 19th of 
November, there are 160,000 education claims pending; of that 24,000 
are Post 9/11 G.I. Bill claims. In the St. Louis office there are 8,000 
claims pending, Buffalo Regional Office has 7,000, Atlanta and Muskogee 
have 4,000. At Minnesota State University - Mankato there are 418 
student veterans that are currently certified, but 53 have not received 
their tuition payments. At South Central College 114 student veterans 
are currently certified, but 32 have not received their tuition 
payments.
    I have seen the progress that the VA has made in approving GI Bill 
benefits, when I first received the GI Bill it took me 6 months to 
receive my first payment. With today's modern technology, veterans plan 
to receive their benefits much sooner. When they do not receive their 
earned benefits, they not only have trouble paying for tuition, they 
also have trouble keeping a roof over their head and food on the table. 
When veterans don't receive their benefits by the tuition payment 
deadline it leaves them with little time to seek the financial 
assistance they need.
    I would like to know what is causing the delay in education 
benefits delivery, what is being done to ensure benefits are delivered 
in a timely manner, and how VA expects to manage the expectations and 
needs of the veterans. I request that the Department of Veterans 
Affairs work with my staff and the Committee's staff to find answers to 
these problems. It is imperative that we work together to ensure 
American's military veterans receive the treatment they've earned.
    Sincerely,
    Tim Walz
    Member of Congress

                                 <F-dash>
                    Prepared Statement of Mr. Moran

    Good Morning Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing on ``Review of Veterans 
Employment Challenges and Initiatives of the 112th Congress.'' My name 
is John Moran, and as Deputy Assistant Secretary for the Veterans 
Employment and Training Service (VETS) at the Department of Labor (DOL 
or Department), I am proud of the work we are doing to support our 
Service Members, Veterans, and their families. This morning I will 
highlight the Department's efforts to provide employment services to 
separating Service Members and Veterans through the Transition 
Assistance Program (TAP) and Jobs for Veterans State Grant (JVSG) 
program, provide an update on our efforts with the Veterans Retraining 
Assistance Program (VRAP), and discuss Veterans' unemployment insurance 
trends and how the Department is exploring strategies to address them.
    An estimated 300,000 Service Members, including Guard and Reserve, 
will separate and leave the military each year over the next five 
years; that represents approximately 1.5 million individuals who will 
be looking to start new careers in a challenging economic environment. 
The nation is rightfully focused more than ever on ensuring that 
America fulfills its obligations to these Service Members, Veterans, 
and their families. To that end, President Obama and Secretary Solis 
are committed to serving our military families as well as they've 
served us by providing them with the support they need and deserve to 
successfully transition to the civilian workforce and find and secure 
meaningful careers.
    Veterans offer a unique set of skills, experiences and leadership 
abilities developed and honed during their years in the military and 
during combat, yet the October 2012, 10.0 percent unemployment rate for 
Gulf War-era II Veterans highlights the difficulties returning Veterans 
are facing in their search for new careers. The challenge of finding 
good jobs for all Veterans requires a focused national effort that our 
mission and initiatives directly support. The VETS mission is a direct 
reflection of our Nation's responsibility to meet the employment, 
training, and job security needs of Americans who have served in 
uniform.
    We execute our mission through our ``P3 Campaign'': Prepare Provide 
and Protect. We Prepare separating Service Members and their spouses 
for obtaining employment through the DOL Employment Workshop component 
of the Transition Assistance Program (TAP); we Provide employment 
assistance and training to separating Service Members and Veterans, and 
advocate on their behalf across all sectors; and we Protect the 
employment and reemployment rights of Service Members and Veterans by 
investigating allegations of wrongdoing under the Uniform Services 
Employment and Reemployment Rights Act (USERRA), and by monitoring 
affirmative measures to hire Veterans in Federal contracting.
    In Fiscal Year 2011, DOL provided more than 4,200 Employment 
Workshops to nearly 152,000 participants while simultaneously 
initiating a major effort to revamp and update the Employment Workshop 
curriculum. Components of the revised Employment Workshop include: 
translating military experience into equivalent civilian language; 
enhanced resume development; and increasing skills in interviewing 
techniques. Results of pilot Employment Workshop surveys indicate that 
91 percent of participants believe the course improved their confidence 
in successfully planning for their transition. These early results 
provide assurance that the new curriculum is meeting our Veterans' 
needs and expectations. Additionally, in Program Year 2010 (July 2010 - 
June 2011), we provided employment assistance to 1.5 million Veterans 
through the American Job Centers (AJCs). And, as of November 2, 2012, 
59,737 VRAP applications have been approved since the program began 
operation in July 2012. We have also investigated 1,548 new USERRA 
complaint cases, helping Service Members and Veterans resolve 
employment issues. Although we've done well, we want and need to do 
more to assist our transitioning Service Members, Veterans and their 
families.

Proactive Outreach:
    In an effort to provide enhanced employment assistance to 
separating Service Members, Veterans, and spouses, we aim to be more 
proactive in our outreach to transitioning Service Members even earlier 
in the transition process. Historically, the Department's primary touch 
point with separating Service Members has been during TAP, 
specifically, during the Employment Workshop. For many separating 
Service Members, attendance at TAP occurs many months after they have 
decided to separate from the military. The gap between when they make 
that decision and their attendance at TAP, for example, represents an 
opportunity to provide early information on the employment assistance 
available through our AJCs. TAP also affords an opportunity for the 
Department of Veterans Affairs (VA) to inform Service Members about VA 
benefits and health, which also are viewed as a vital part of the 
overall post-military employment process. As such, one of our key goals 
is to increase outreach to separating Service Members and Veterans as 
early in the transition process as possible.
    Our outreach strategy involves a four-fold increase in the number 
of times we interact and provide employment assistance and guidance to 
separating Service Members. These four ``touch points'' occur: 1) when 
the service member decides to separate from military service; 2) when 
the service member attends the TAP Employment Workshop; 3) at the point 
of formal separation; and 4) approximately 70 days after separation. 
Each touch point reinforces the service member's awareness and 
understanding of the benefits of the AJCs. At the first touch point, we 
provide basic information on AJCs. At the second touch point, TAP 
Employment Workshop attendance, Service Members and their spouses not 
only learn about Job Centers' resources, but they also have an 
opportunity to register for online services provided by the Department 
and receive information about the Job Center nearest to the community 
where they intend to live. When the service member separates, the third 
touch point, we remind the member of the services provided at AJCs. The 
fourth touch point reaches this cohort at a time when they may be 
surprised at the difficulty of their job search. It provides yet 
another reminder of the specific help they can get, where they can get 
it, and what it will do for them.
    This four-point strategy will lead to improved employment outcomes 
and decreasing Unemployment Compensation costs. It will also reinforce 
the message that we are standing by our troops - even after they leave 
the service. With the skills developed during military service, the 
preparation received prior to separating, and civilian employers 
recognizing the value of hiring Veterans, we expect that many Veterans 
will continue to find good jobs on their own. However, we want to 
continually remind our Veterans of the help and services available to 
them through our nation-wide AJC network.

Jobs for Veterans State Grant (JVSG) Strategy:
    Earlier I pointed out that nearly 300,000 Service Members will be 
separating from the military each year over the next 5 years, totaling 
approximately 1.5 million individuals. The federally-funded public 
workforce system, comprised of approximately 2,800 AJCs across the 
nation, will be challenged in meeting the increased demand for 
employment services for these heroes.
    The public workforce system provides priority of service for 
Veterans in all DOL-funded employment and training programs. In 
addition, VETS, through the JVSG program, funds two types of state-
level positions: the Disabled Veteran Outreach Program Specialists 
(DVOPs) and the Local Veteran Employment Representatives (LVERs). 
Specially trained DVOPs provide intensive services for Veterans who 
have significant barriers to employment to focus on improved employment 
prospects. LVERs conduct outreach to employers to develop and identify 
employment opportunities for all Veterans served by the AJC, and to 
educate and advise all AJC staff on Veteran issues.
    Over the years, there has been a lack of clarity about the primary 
duties of DVOPs and LVERs, which has led to a risk that those Veterans 
with the most significant barriers to employment could be underserved. 
VETS and DOL's Employment and Training Administration (ETA) have been 
working closely together to examine and refocus the roles and 
responsibilities of DVOPs and LVERs, and intend to issue guidance on 
this in the future. We will keep the Committee informed as our work on 
this issue progresses.

Veterans Retraining Assistance Program (VRAP) Outreach and 
        Participation:
    Section 211 of the VOW Act established the VRAP for unemployed 
Veterans aged 35 to 60 to provide eligible Veterans with up to 12 
months of Department of Veterans Affairs (VA)-funded retraining 
assistance to pursue an associate degree or certificate in a high-
demand occupation. The VOW Act specifies that the VA and DOL shall 
jointly administer the process for determining an applicant's VRAP 
eligibility. DOL's specific responsibility is to determine an 
applicant's initial eligibility based on their age, employment status, 
and previous participation in other job training programs. To this end, 
DOL and the VA have developed a joint application process that relies 
on a combination of VA data and self-attestation to ensure the timely 
implementation of this requirement. We highly encourage all eligible 
Veterans to apply for and utilize their earned benefits under VRAP.
    The Department's outreach efforts are focused on not only ensuring 
that eligible participants are accepted into the VRAP, but that they 
also complete their training. DOL has strongly encouraged State 
Workforce Agencies to promote the program at the state and local level, 
and has received informal updates from the states about their ongoing 
outreach efforts. The vast majority of states, for example, have 
specifically mentioned utilizing their Unemployment Insurance (UI) 
system or other case management systems to identify unemployed age-
eligible Veterans for targeted VRAP outreach. Although this approach is 
not capable of identifying all age-eligible Veterans, it is an 
effective starting point for targeting age-eligible Veterans who are 
unemployed and likely in need of retraining and employment assistance.
    In May 2012, DOL issued formal announcements providing the 
workforce system with general information on the VRAP (Training and 
Employment Notice 43-11 and Veterans Program Letter 7-12), and 
presented a joint webinar with the VA offering a walk-through of the 
VRAP application. In October 2012, DOL provided formal policy guidance 
for the workforce system on providing outreach to VRAP participants 
after they exit the program (Training and Employment Guidance Letter 8-
12). Further, DOL sent a ``Welcome to VRAP'' email to over 50,000 
Veterans with an approved application. This email informed them of the 
services and assistance available through the AJCs; the right to 
priority of service as a Veteran; how to locate their state's job bank 
and find the nearest AJC; and VA contact information if they need to 
discuss their VRAP application or certify enrollment. DOL and VA have 
also discussed providing additional outreach to the VRAP-approved 
applicants who have yet to enroll in training.
    Moreover, DOL is leveraging the core employment services provided 
under the Wagner-Peyser Act to track the employment outcomes of VRAP 
participants who receive employment assistance from AJC staff. 
Specifically, the Department will capture the entered employment, 
employment retention, and earnings outcomes of Veterans who participate 
in VRAP, and then subsequently receive employment services through the 
Wagner-Peyser Act program. DOL also prepared a Paperwork Reduction Act 
(PRA) Information Collection Request for OMB approval to collect data 
on the level of outreach provided to each VRAP participant after he or 
she has completed VRAP training. Lastly, DOL and the VA are developing 
a set of follow-up inquiries for VRAP participants to measure their 
satisfaction with the VRAP. As of November 1, 2012, there were 59,737 
Veterans accepted into the VRAP, with 16,264 Veterans enrolled in 
training. It is expected that post-training employment assistance 
services will be provided by AJC staff, with DVOP specialists 
supporting those Veterans with significant barriers to employment.

Veterans Unemployment Compensation:
    State Workforce Agencies track those individuals who were recently 
separated from military service under the Department of Defense and are 
receiving unemployment insurance (UI) benefits through the Unemployment 
Compensation for Ex-Service Members (UCX) program. During the month of 
September, for example, the average weekly number of payments to UCX 
claimants was 53,629. This includes UCX claimants in the regular UI 
program, the Emergency Unemployment Compensation Act of 2008 (EUC 2008) 
program, and the Federal-State Extended Benefits (EB) program. Average 
duration of claims can only be provided for UCX claimants while they 
are in the regular program, which in most states constitutes the first 
26 weeks of UI, paid for and administered by the states. For the 12 
months ending September, 2012, the average duration for UCX claimants 
in the regular UI program was 21.5 weeks. For the 12 months ending 
September, 2012, 90,965 UCX claimants drew at least one check in the 
regular program and 58,760 of those claimants used all of their 
benefits, exhausting their regular program entitlement. This equates to 
a 64.5 percent exhaustion rate; we can only provide an exhaustion rate 
measure for those UCX claimants in the regular program.
    In addition, the U.S. Army approached our partner agency, ETA, in 
the fall of 2011 to discuss collaborative strategies to support 
improved outreach to Veterans receiving unemployment benefits under the 
UCX program. Those discussions led to a decision to partner with four 
states to develop and model new strategies that provide a strong 
collaboration among the UI system, the public workforce system, and the 
three branches of the Army (regular, Guard, and Reserves). Four 
states--Georgia, Illinois, North Carolina and Texas--received grants of 
$750,000 each from the Program Year 2011 (July 2011-June 2012) WIA 
Dislocated Worker Demonstration funds to participate in this 
initiative. These states were selected based on their high UCX claimant 
populations and demonstrated interest in developing innovative 
reemployment strategies for Veterans. The Enhanced Outreach and 
Employment Services for Army Unemployment Compensation for UCX 
Claimants Initiative will support the development and implementation of 
new outreach and service delivery strategies, data sharing, as well as 
delivery of enhanced reemployment services provided to UCX claimants. 
We expect to see new strategies to increase access to job search 
opportunities for UCX Claimants emerge from this effort.

Conclusion:
    Over the next five years, a projected 1.5 million Service Members 
will be transitioning from active duty to civilian life. We owe these 
brave men and women the best services and benefits our Nation can 
provide. The Department and this Administration are firmly committed to 
fulfilling that sacred obligation. We strive daily to do so through 
programs and services designed to Prepare, Provide and Protect our 
transitioning Service Members, Veterans and their spouses.
    Mr. Chairman, Ranking Member Braley, Members of the Subcommittee, 
this concludes my statement. Thank you for the opportunity to testify 
today. I would be pleased to answer any questions you may have.

                                 <F-dash>
                     Prepared Statement of Mr. Coy

    Good morning Chairman Stutzman, Ranking Member Braley, and Members 
of the Subcommittee. I am pleased to join you this morning to discuss 
the Department of Veterans Affairs' (VA) efforts to prepare Veterans 
for re-employment and/or retraining through the Vocational 
Rehabilitation and Employment (VR&E) Program and the Veterans 
Retraining Assistance Program (VRAP).
    The Secretary of Veterans Affairs has made Veterans employment one 
of his highest priorities. VA has several ongoing programs and 
initiatives that assist Veterans and Servicemembers with their 
transition and employment needs, including:
    <bullet>  The VR&E Program for our wounded warriors and disabled 
Veterans;
    <bullet>  Education programs, most specifically the Post-9/11 GI 
Bill, that prepare Veterans for future employment opportunities;
    <bullet>  Employment resources, including the eBenefits portal and 
VetSuccess.gov;
    <bullet>  Implementation of the ``VOW to Hire Heroes Act of 2011,'' 
(Public Law 112-56), specifically VRAP, and mandatory participation by 
Servicemembers in the redesigned Transition Assistance Program (TAP);
    <bullet>  The VA For Vets Program, helping Veterans seeking 
federal-sector employment in VA, as well as basic pre-employment job-
search skills and;
    <bullet>  VA job fairs and other job fairs at which VA 
participates.
    The Department of Labor's (DOL) Bureau of Labor and Statistics 
(BLS) most recently reported that overall Veteran unemployment was 6.3 
percent, representing about 689,000 individuals. For our Post-9/11 
Veterans, unemployment was above the national average at 10.0 percent, 
or about 209,000 Americans. The Veterans Benefits Administration (VBA) 
Office of Economic Opportunity has Veteran employment as one of its key 
responsibilities. By combining our Education, VR&E, and Home Loan 
Guaranty programs under a single office, VBA is also leveraging 
existing VA benefits and programs to improve Veterans' employment 
opportunities.
    Veterans come with outstanding credentials. They possess valued 
skills, knowledge, and expertise, and they bring discipline, emphasis 
on teamwork, and an unparalleled mission-oriented work ethic to their 
jobs. Nevertheless, many continue to have trouble finding employment 
that matches their talents and interests.

VR&E PROGRAM FOR WOUNDED WARRIORS AND DISABLED VETERANS
    VA has long offered employment services through the VR&E Program. 
Through 57 regional offices and over 160 out-based locations, the VR&E 
Program joins Veterans with more than 800 vocational rehabilitation 
counselors (VRCs) who assist Veterans with service-connected 
disabilities prepare for, find, and keep suitable jobs. The VR&E 
Program is available to Veterans who have a service-connected 
disability rating of at least 10 percent, with a serious employment 
handicap, or a rating of at least 20 percent, with an employment 
handicap.
    With assistance from VRCs, Veterans evaluate their interests, 
aptitudes, and capabilities to determine the best career paths, given 
their service-connected disabilities. While the Veteran is in school, 
VRCs work with him or her, as well as school officials, to ensure 
benefits are paid on time. VRCs assist Veterans with their classes, 
ensure they are performing well, and provide additional tutoring or 
other assistance when needed.
    Over 90 VR&E employment coordinators (ECs) across the country work 
with DOL Disabled Veterans Outreach Program specialists (DVOPs) and 
Local Veterans Employment Representatives (LVERs) to help place 
Veterans in suitable careers. ECs leverage relationships with civilian 
employers to help match each Veteran with an appropriate work place. 
ECs can also offer special programs to qualified companies that want to 
hire Veterans, including employer incentives, on-the-job training, and 
non-paid work experience. In fiscal year (FY) 2012, VA offered its 
first ``EC Certification Training Course,'' designed to standardize and 
establish consistency of services across the country, with 82 ECs 
certified after completing the training.
    In FY 2012, VR&E provided services to over 114,000 Veterans, an 
increase of 5.8 percent from FY 2011. These services resulted in more 
than 8,000 employment rehabilitations, an increase from 7,420 in FY 
2011. Over 70 percent of Veterans who completed a VR&E rehabilitation 
program are currently working in a professional, managerial, or 
technical career. Job placements vary greatly based on each Veteran's 
specific needs. Approximately 60 percent of Veterans find careers in 
the private sector, including faith-based and community organizations, 
or opt for self-employment. The remaining 40 percent of Veterans find 
placements in Federal, State, or local governments. The average post-
rehabilitation salary for Veterans in FY 2012 was $39,341, a 450 
percent increase from pre-rehabilitation salaries.
    For severely disabled Veterans who cannot currently participate in 
programs of vocational rehabilitation or seek employment, VR&E provides 
the Independent Living (IL) Program. Through this program, VA provides 
a wide range of services to assist Veterans in becoming as independent 
as possible in their activities of daily living. During FY 2012, 
approximately 2,700 Veterans successfully achieved their IL goals, both 
at home and in their communities. This was an increase from 2,442 in FY 
2011.
    VR&E personnel also provide educational and vocational counseling 
services to Veterans eligible for VA education benefits. Commonly 
referred to as ``Chapter 36'' counseling, eligible Veterans and 
Servicemembers who are within six months of discharge are able to meet 
with employment counselors to receive assistance in selecting their 
employment goals and choosing educational and training objectives to 
meet their goals. Through this program, beneficiaries can also receive 
counseling to facilitate their transition from active-duty service to 
civilian employment.

EDUCATION PROGRAMS
    Helping solve the issue of Veteran unemployment begins with giving 
our Veterans a strong educational and/or training foundation on which 
to build their careers. The Post-9/11 GI Bill provides financial 
support to Veterans to pursue undergraduate and professional degrees, 
career and technical training, licensing and certification 
requirements, industry-recognized credentials or certificates, on-the-
job experience, and even training in entrepreneurship. Since the 
program's inception in August 2009, VA has issued over $23 billion in 
benefit payments to over 860,000 beneficiaries. During the 2012 fall 
term, VA received enrollments for over 470,000 participants attending 
institutions of higher learning, with another 9,200 beneficiaries 
enrolled in non-college degree programs. From meetings with employers, 
Veterans, and Veterans Service Organization (VSO) representatives, it 
is clear there is a great demand in our economy for Veteran employees. 
The concern facing employers is that they must find qualified employees 
who have the experience, education, and training needed to fill 
positions.
    Where a Veteran is struggling in a particular subject area, 
tutorial services are available. To be eligible to receive tutorial 
assistance, a Veteran must be enrolled at least half time, receiving VA 
educational assistance, and have a need for the tutoring. The benefit 
comes in the form of a stipend, equal to the cost of tutoring but not 
to exceed $100 per month for twelve months. Remedial training in basic 
mathematics, reading, and English may also be available.
    Executive Order 13607 (Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members) directed VA to assist to ``stop deceptive and 
misleading'' school recruitment efforts. To adhere to the President's 
directive, VA applied to trademark the term ``GI Bill.'' On October 16, 
2012, the US Patent and Trademark Office issued a certificate of 
registration to VA for the term ``GI Bill'' that will help prevent 
predatory school recruitment practices that target VA beneficiaries.
    VA's education and training programs, VRAP, and VetSuccess on 
Campus (VSOC) program are integrated and ensure that Veterans receive 
the foundation of skills and training they need to be successful in the 
civilian work place.

EMPLOYMENT RESOURCES
    In the past two years, VA significantly improved its online 
employment resources. The VetSuccess.gov Web site is a ``one-stop 
shop'' that integrates the tools and information Veterans need to find 
employment and advance their careers. The site incorporates resources 
to help Veterans and their families in all aspects of their job search, 
from networking to completing applications and resume-building. The 
site allows Veterans to post their resumes and enables employers and 
hiring managers to search for qualified applicants. Over 4,300 
employers and nearly 164,000 Veterans are registered on the site, and 
employers posted more than 18,000 job openings in FY 2012.
    The VSOC program is another important initiative to help Veterans 
succeed in school by facilitating their transition from military to 
campus life. A VSOC counselor, placed permanently on select campuses, 
ensures Veteran students receive the VA benefits and services to which 
they are entitled while also serving as a liaison with school 
certifying officials. Counselors provide vocational testing, career and 
academic counseling, and adjustment counseling to resolve problems 
interfering with successful completion of a Veteran's education 
program. In FY 2012, the VSOC program expanded to a total of 32 
campuses. VA plans to add another 52 VSOC counselors in FY 2013.
    The joint VA-Department of Defense (DoD) eBenefits portal is 
another web-based tool initiative that provides access to tools to 
assist transitioning Servicemembers and Veterans in their job search. 
This site allows users to search their online personnel file and access 
important service records needed when applying for civilian employment, 
including their separation documents (DD-214). The portal also accepts 
applications and provides information about Veterans' education, home 
loan, compensation, and other VA benefits. The eBenefits site also 
features a ``Career Center'' with single sign-on capability to 
VetSuccess and VA for Vets. Additional online career tools are 
available to assist Veterans in completing self-assessments, 
translating their military skills to civilian occupations, and building 
their resumes.
    On November 8, 2010, DoD directed all new Active-Duty, National 
Guard, and Reserve members who subsequently obtain a Common Access Card 
(CAC) to also obtain a Department of Defense Self-Service (DS) Logon 
credential for accessing the eBenefits portal.

IMPLEMENTATION OF THE VOW TO HIRE HEROES ACT OF 2011
    The VOW to Hire Heroes Act of 2011 created VRAP to assist in 
employing the hardest hit segment of the Veteran population - Veterans 
aged 35 to 60. VA is authorized to provide VRAP benefits to 45,000 
participants beginning in FY 2012 and an additional 54,000 participants 
in FY 2013.

Data on VRAP Applications
    The VOW Act requires that VA and DOL jointly administer the process 
for determining an applicant's VRAP eligibility. VA began accepting 
applications in May 2012 and received over 45,000 applications in the 
first four months the application was available. Interest in the 
benefit remains high, as VA receives more than 2,300 applications each 
week. There have been 250,000 logged visits on the VRAP web page to 
date. VA has already received more than 73,000 VRAP applications and 
issued over 62,000 certificates of eligibility to begin training in 
either FY 12 or FY 13. Of the applications received, approximately 
5,000 VRAP applications were denied. More than 73 percent of denials 
were because the applicant was eligible for another VA education 
benefit. Other less common reasons for denying VRAP applications are 
that the applicant received a dishonorable discharge (17 percent of 
those denied) or did not serve on active duty (2 percent of those 
denied).

Age Breakdown of VRAP Participants
    To qualify for VRAP, a Veteran must be unemployed, at least 35 
years old but not older than 60, and must not be eligible for any other 
VA education benefit. Within the targeted demographic, the average age 
of VRAP participants is 49. Participants between the ages of 35-44 make 
up 26 percent, ages 45-54 make up 48 percent, and 55 years or older 
comprise another 26 percent of total participants. Participants come 
from all 50 states, as well as the District of Columbia and Puerto 
Rico. The states with the highest number of Veterans in receipt of a 
certificate of eligibility are California, Florida, Georgia, Texas, and 
North Carolina.

Funding for VRAP
    More than 17,000 Veterans are currently enrolled in school using 
VRAP, and VA has already provided over $27 million in program benefits 
directly to these Veterans. VRAP provides up to one year of Montgomery 
GI Bill benefits to unemployed Veterans who wish to seek training in 
any one of the 211 high-demand career fields identified by our partners 
at DOL. To date, the most popular areas of study under VRAP are:
    1) Computer support specialist;
    2) Substance abuse and behavioral disorder counselor;
    3) General and operations manager;
    4) Business operations manager;
    5) Heating, air conditioning, and refrigeration mechanic;
    6) Cook;
    7) Heavy and tractor-trailer truck driver;
    8) Paralegal and legal assistant;
    9) Registered nurse; and
    10) Medical assistant.
    These ten careers account for over 48 percent of all VRAP 
enrollees.

VA Plan to Promote VRAP in FY13
    Based on current application rates, VA and DOL expect to reach the 
99,000 participant limit in early-February 2013. This success came 
through a significant outreach effort by VA, DOL, and our partner 
agencies. To ensure the success of VRAP, VA produced and plans to air 
two radio public service announcements on more than 1,600 stations. VA 
produced and plans to air two internet and television advertisements on 
the following networks: CBS, ABC, Verizon, Comcast, Disney, and ESPN. 
Additionally, VA created multiple print advertisements and worked with 
several periodicals to have advertisements published, to include the 
Military Times and its service branch counterparts.
    VA is not only focused on contacting potential VRAP applicants, but 
is also making significant efforts to reach those Veterans who received 
a certificate of eligibility and have not yet enrolled in school. We 
currently have over 75 email distribution lists containing over 3,000 
email contacts and continue to actively spread the word about the VRAP 
opportunity. VA coordinated with several nationwide retailers to have 
VRAP flyers distributed to their customers during Veterans Day.
    Title 2 of PL 112-56 required improvement of TAP, including 
mandatory participation for separating Servicemembers, individualized 
goal setting, military occupational specialty (MOS) crosswalk, and an 
end of military career event (CAPSTONE). VA, DOL, and DoD partnered to 
revamp the existing TAP program and have collaborated with a number of 
agencies on this initiative, including the Departments of Education and 
Labor, the Small Business Administration, and the Office of Personnel 
Management, to better prepare Servicemembers for transition. The result 
transforms the traditional, optional TAP into a mandatory, multi-day 
training seminar, piloted at various military installations, with the 
intent to provide continual improvements as enhanced benefits and 
technology advancements occur in the coming years. Representatives from 
DoD, DOL, and VA will provide several days of instruction on the 
various benefits available to Veterans and provide individual 
assessments to assist with translating skills developed in military 
occupational specialties to qualifications required for civilian 
employment. Traditional slide presentations given to large auditoriums 
full of transitioning Servicemembers are replaced by smaller, more 
personal classroom sessions. The new TAP will also offer optional 
workshops focused on the Servicemember's intended civilian path--
education, technical training, or entrepreneurship. These workshops 
will provide personalized information to assist Servicemembers in their 
pursuit of education, employment, and business opportunities. The new 
TAP will also include Department of Labor Employment Workshops, which 
focuses on assisting Servicemembers in finding meaningful civilian 
employment.

VA FOR VETS
    VA is leading the Federal government in hiring Veterans through its 
VA for Vets program, that is part of the Veteran Employment Services 
Office. The office was created in 2011 and became the first of its kind 
fully dedicated to Veterans' Federal employment. VA for Vets prepares 
job-seeking Veterans for careers at VA. The program assists Veterans 
translate their military skills and training into civilian careers. It 
also provides tools and resources to human resources professionals, 
supervisors, and training managers to help them recruit and hire 
Veterans. In its first year, VA for Vets offered career coaching to 
19,000 Veterans and helped produce over 28,000 Veteran resumes. 
Specific details on the program can be found on the Web site (http://
vaforvets.va.gov/Pages/default.aspx)

VA JOB FAIRS AND OTHER JOB FAIRS AT WHICH VA PARTICIPATES
    In January 2012, VA organized the first-ever, large-scale Veteran 
hiring fair in Washington, DC. Attended by more than 4,100 Veterans, 
the ``Veteran Career Fair and Expo'' resulted in over 2,200 on-the-spot 
interviews and more than 550 tentative job offers. At the June 2012 
Veteran Hiring Fair in Detroit, coupled with the VA's small business 
conference, employers interviewed another 5,700 Veterans and made over 
1,300 tentative job offers. Veterans hire Veterans, so the more Veteran 
entrepreneurs we cultivate, the more opportunities exist for Veterans' 
employment.
    VA partnered with the U.S. Chamber of Commerce in support of the 
Chamber's Hiring Our Heroes initiative. The Chamber of Commerce hosted 
over 200 Hiring Our Heroes career fairs in 48 states, the District of 
Columbia, and Puerto Rico. VA Employment Counselors attended almost 90 
of those career fairs, where they connected Veterans with employers, 
assisted Veterans in applying for benefits, and provided career 
coaching on resume building and interview techniques.

CONCLUSION
    VA and its partners have made significant strides in Veteran 
employment in the last two years. With an estimated one million 
Veterans likely to separate or retire in the coming five years and many 
of our youngest Veterans still unemployed, now is the time to redouble 
our efforts to bring the intrinsic values our Veterans have to bear to 
the civilian workforce. VR&E and VRAP allow VA to take tangible steps 
to assist training and employing our Veteran population. We thank the 
Subcommittee in helping us achieve these goals and allowing us to 
testify on the important issue of Veteran employment.
    Mr. Chairman, this concludes my statement. I welcome any questions 
you, or the other members of the Subcommittee, may have for me.

                                 <F-dash>
                  Prepared Statement of Mr. Cantu, Jr.

GREETING
    Good Morning, Chairman Stutzman, Ranking Member Braley, and Members 
of the Committee. For the record, my name is Eliseo ``Al'' Cantu, Jr., 
Chair of the Texas Veterans Commission. I am humbled by the invitation 
to testify before you today. On behalf of the Texas Veterans 
Commission, I would like to thank the Committee for this opportunity 
and for your interest in the efforts the state of Texas has undertaken 
in order to serve the 1.7 million Veterans in our state.
    I am accompanied today by Mr. Shawn Deabay, Director of the Texas 
Veterans Commission's Veterans Employment Services (VES) program. Mr. 
Deabay has worked in the VES program for nearly 13 years, working his 
way up from a Disabled Veterans Outreach Program (DVOP) Specialist and 
Local Veterans Employment Representative (LVER). In 2007, he was named 
the Texas LVER of the year by the American Legion and recognized as the 
National LVER of the Year by the Disabled American Veterans (DAV). 
After being promoted to Regional Manager for the East Texas Region, his 
region won the Veteran of Foreign Wars (VFW) Employment Distinguished 
Services Award. He became the program's Operations Director, and 
eventually Program Director in 2011.
    My testimony will provide you with information regarding Veterans 
employment in Texas with details on how we have implemented the 
Veterans Re-training Assistance Program (VRAP) as well as our view on 
the roles and responsibilities of LVERs and DVOP Specialists.

TEXAS VETERANS COMMISSION
    The Texas Veterans Commission is the Veterans advocacy agency for 
the state of Texas. Our mission is to advocate for and provide superior 
service to Veterans in the areas of claims assistance, employment 
services, education, and grant funding that will significantly improve 
the quality of life for all Texas Veterans, their families and 
survivors. The Texas Veterans Commission provides these services 
through four program areas: Claims Representation and Counseling, 
Veterans Employment Services, Veterans Education Program, and the Fund 
for Veterans' Assistance. Additionally, the Texas Veterans Commission 
has three initiatives that connect Veterans with services: Veterans 
Communication and Outreach, Women Veterans Initiative, and the Veterans 
Entrepreneur Program.
    No other state has centralized all of these program areas within 
their state's Veterans agency. Texas is becoming recognized for 
aggressively leading on Veteran issues. National leaders have referred 
to the ``Texas-model'' when advocating for the integration of Veterans 
services. This integration allows the agency to remain Veteran focused, 
with no competing priorities.

VETERANS EMPLOYMENT SERVICES (VES) SUCCESS
    The Texas Veterans Commission's VES program assists Veterans with 
obtaining long-term meaningful employment. In the most recent 12-month 
reporting period, our LVERs and DVOP Specialists assisted 69,080 
Veterans, with 38,714 of those Veterans obtaining employment, and 
earned $1.4 billion in wages. This has a positive impact on Veterans 
and their families and has significantly contributed to the lower 
Veteran unemployment rate in Texas.
    The Texas Veterans Commission received $11,573,000 from the U.S. 
Department of Labor Veterans Employment and Training Services (DOL-
VETS) to operate the Jobs for Veterans State Grant (JVSG). As a result 
of the efforts of LVER and DVOP Specialist staff, 221 Veterans obtained 
employment for every one LVER/DVOP staff person. Texas accounts for 18 
percent of the nation's Veterans entering into employment after 
receiving assistance from VER staff while spending 7 percent of the 
federal funding from the Jobs for Veterans State Grant (JSVG).
    Our goal is to assist as many Veterans as we can while continuing 
to provide high-quality services. There will be thousands of military 
service men and women coming home over the next few years, which will 
increase the need for our services. We owe it to our nation's heroes to 
assist them with their employment needs when they come home. Employment 
stabilizes Veterans and their family's lives, allowing them to make the 
difficult transition from military to civilian life.
    I commend Congressional leaders on your efforts in passing VOW to 
Hire Heroes Act of 2011, especially the Veterans Re-training Assistance 
Program (VRAP). This program allows older Veterans with limited skills 
and training to receive much needed assistance. LVERs and DVOP 
Specialists have and will continue to outreach to as many Veterans as 
they can to ensure there is a vast awareness in Texas. As of October 
18, 2012, there were a total of 4,197 approved VRAP applications in 
Texas with 1,194 Veterans actively participating in training.

LVER/DVOP SPECIALIST ROLES AND RESPONSIBILIITIES
    As the Director of our VES program, Mr. Deabay, sits on the 
National Association of State Workforce Agencies, Veteran Affairs 
Committee. During their most recent meeting in August, the Committee 
members were briefed by John Moran, Deputy Assistant Secretary for 
Operations and Management for DOL-VETS on changes to the LVER and DVOP 
Specialist's roles and responsibilities. While we appreciate the desire 
to improve the JSVG and even the focus of some of the changes, we are 
concerned that other changes will be detrimental to Veterans across the 
nation. We must voice our concerns regarding policy changes that 
adversely impact our ability to serve the Veterans of Texas. The Texas 
Veterans Commission is completely opposed to any recommended changes to 
the VES program which would eliminate, or even place limits upon, our 
ability to see and serve Veterans.
    One of the proposed changes is that DVOP Specialists will be 
limited to serving no more than 20 percent of the Veterans in the 
Workforce System. States serving more than 20 percent could be placed 
on a Corrective Action Plan and face possible sanctions. VES exists to 
serve our nation's heroes. Placing limitations on the number of 
Veterans that can be seen by our staff adversely impacts Veteran's 
ability to locate and retain long-term and meaningful employment.
    DVOP Specialists will also be limited to strictly case management 
activities and will not provide services to Veterans not enrolled into 
case management. In Texas, the non-VES workforce staff of our partners 
at the Texas Workforce Commission has budget challenges of their own. 
An assumption that the Veteran population can be seamlessly absorbed by 
these partners is overly optimistic. The initial assessment of a 
Veteran's needs is an extremely import function and includes a one-on-
one, in-depth evaluation to identify significant barriers to employment 
and a plan to address the needs. This assessment should be conducted by 
VES staff whenever possible, as VES staff are specifically trained to 
identify these barriers. In Texas, all VES staff members are Veterans 
themselves and there is immense value in Veterans being served and 
assisted by fellow Veterans. Generally, VES staff can devote more time 
providing quality one-on-one services, which helps those ultimately 
enrolled in case management.
    LVERs will not serve Veterans; they will only be allowed to perform 
employer outreach. Title 38 U.S.C. Sec.  4102 clearly states that one 
of the priorities of a LVER is to assist recently separated Veterans 
along with outreach to employers. Employer outreach is a vital part of 
the employment equation, and Texas has embraced this by focusing four 
of its LVERs on employer outreach as Veteran Business Representatives, 
a change that was difficult to get DOL-VETS to embrace. Yet we know 
that locating employment opportunities only fills half of the need. 
Moreover, this change severely impacts rural areas and simply moving an 
LVER into a DVOP Specialist's role is not the answer. Then we will have 
employers not being outreached.
    The performance expectation for the entered employment and 
retention rates for recently separated Veterans will be removed. The 
VES program at TVC is dedicated to helping any and all Veterans, with 
an emphasis on recently separated and disabled Veterans. The national 
unemployment rate for Gulf War II Era Veterans has remained over 10 
percent for 27 of the past 36 months, peaking at 15.2 percent in 
January 2011. Now is not the time to reduce or eliminate a focus on 
recently separated Veterans. TVC takes a proactive approach by actively 
seeking our recently separated Veterans, who may not immediately seek 
assistance through local workforce centers. TVC monitors new UI 
claimants, outreaches to colleges and universities, and supports other 
outreach efforts in order to ensure all Veterans know about our 
services.
    DOL-VETS wants fewer LVERs and will require states to convert the 
majority of their LVERs to DVOP specialists. The duties performed by 
LVERs require an entirely different skill set than the duties performed 
by a DVOP Specialists. Simply changing the job duties of an LVER to a 
DVOP is not realistic and will result in a significant increase in 
staff turnover and loss of valuable experience and knowledge helping 
Veterans.
    The LVER and DVOP Specialist programs were established to ensure 
services are received by Veterans. One of the major reasons for our 
success, and an element that cannot be understated is Veterans serving 
Veterans. Veterans should be afforded the opportunity to be served by 
highly trained VES staff with an understanding and expertise in the 
transition from military to the civilian workforce.
    VES staff can provide the following because of their military 
experience and their specialized Veteran employment training:
    <bullet>  VES staff know what Veteran services are available 
locally
    <bullet>  VES staff generally can spend more time with a Veteran to 
obtain a true assessment
    <bullet>  VES staff can advise the Veteran of possible USERRA 
rights
    <bullet>  VES staff can advise the Veteran of possible Veterans 
Preference eligibility
    <bullet>  VES staff can assist the Veteran with translating 
military occupation to civilian skills
    <bullet>  VES staff is familiar with local Homeless Veterans 
Reintegration Program (HVRP) and Veteran Workforce Investment Program 
(VWIP) grants
    <bullet>  VES staff knows about REALifelines, VR&E, Unemployment 
Compensation for Ex-Servicemembers (UCX), Homeless Veterans' Prevention 
Project, and everything else in their community that might benefit the 
Veteran sitting at their desk

HOW TO IMPROVE VETERANS EMPLOYMENT SERVICES ACROSS THE NATION
    Require Veterans serving Veterans. Every LVER and every DVOP 
Specialist must be a Veteran. This requirement was part of legislation 
approved by the House of Representatives earlier this year and must be 
incorporated into the Jobs for Veterans State Grant.
    Create Supportive Supervising Structures. While each state must 
have the ability to determine the supervising structure that works for 
that state, DOL-VETS should require that coordination and reporting for 
the Jobs for Veterans State Grant is directly to the senior executive 
responsible for the grant in the state. Moreover, depending on the size 
of the Jobs for Veterans, it might be the only program that person is 
responsible for. The Jobs for Veterans State Grant and serving Veterans 
deserves no less.
    Reward Performance. Instead of a focus on dictating what states can 
do, DOL-VETS should work with the states to develop meaningful 
performance standards and add a performance element to the funding 
formula. Then states that perform at a high level should receive 
increased funding rather than the current system which actually 
punishes states that do a good job and rewards those that do not.
    Require Input from the States. The policy changes being 
contemplated by DOL-VETS were not developed in partnership with the 
states. DOL-VETS should be required to have a working group of small, 
medium, and large, high-performing states. The focus of this working 
group would be on how all states can improve employment services to 
Veterans and provide recommendations to DOL-VETS with a focus on best 
practices.
    Encourage innovation. DOL-VETS must allow states to be innovative 
and to create methods to serve as many Veterans as they can, while 
continuing high quality. When Texas wanted to four of our LVERs to 
serve as Veteran Business Representatives and work with employers, DOL-
VETS resisted this change, which they now embrace in the extreme. DOL-
VETS should not be placing limits on the services that states provide 
Veterans or choosing which parts of the law governing these programs it 
believes are more important.

CLOSING
    In closing, I would like to thank the Committee for the opportunity 
to share this perspective with you today. TVC has demonstrated the 
capability to have a positive impact on Veterans employment issues. 
With the support of this Committee, we believe that the VES program in 
Texas can continue to develop innovative and effective ways to improve 
the employment services provided to Veterans in our state.

                                 <F-dash>
          Summary of Testimony by Major General Turner (Ret.)

SUMMARY OF TESTIMONY
    <bullet>  While State Workforce Agencies (SWAs) are challenged by 
higher demand for services and diminished funds, over the last five 
years, an additional 16 million jobs were made available to state job 
banks nationwide at no additional cost to federal and state government, 
employers, or jobseekers, through the National Labor Exchange (NLX).
    <bullet>  Although vague information has been shared with NASWA and 
its members about the proposed policy directive expected to 
significantly change the job descriptions and responsibilities of 
Disabled Veteran Outreach Program (DVOPs) and Local Veteran Employment 
Representatives (LVERs), it is difficult to comment on a document that 
is not yet available. States believe it would have been more efficient 
if USDOL chose to work with NASWA and states in the development of the 
policy directive before it is announced.
    <bullet>  States appreciate and strongly support the implementation 
of the Veterans Re-training Assistance Program (VRAP). The primary 
difficulty in working with VRAP participants is the Department of 
Veterans Affairs will not disclose Social Security numbers of VRAP 
participants with the workforce system. Social Security numbers are the 
primary identifier used in the workforce system to register, track and 
report services. This disconnection between the two systems makes it 
difficult to track VRAP participants, ensure they are offered the 
services of the one-stop system, and record outcomes.
    <bullet>  The VRAP program is administered by the VA, with 
veterans' basic eligibility determined by the U.S. Department of Labor. 
Veterans self-select training courses from an approved list of demand 
occupations for training provided by an approved training provider. The 
workforce system has no role in the program - other than to promote it 
- until the veteran completes training and then the public workforce 
system has the responsibility to assist the veteran in finding 
employment. State Workforce Agencies are concerned that the ultimate 
responsibility for the end result of the training lies with them, with 
no involvement with the veteran until the completion of training.
    <bullet>  State Workforce Agencies and the one-stop career system 
actively promote the VRAP to eligible veterans. States are using a 
variety of methods to promote the program to veterans, local workforce 
investment boards, one-stop career centers, and employers. Most--if not 
all--states have systems in place to contact all age-eligible veterans, 
who have registered for employment services with the State Workforce 
Agency.
    <bullet>  NASWA has promoted VRAP through presentations and 
information sharing at meetings of its Veterans Affairs and Employment 
and Training Committees and to its Board of Directors; conducting a 
webinar on VRAP; promoting VRAP in its primary publication, 
``Bulletin;'' and providing information on a LinkedIn forum for state 
veterans' coordinators.

                                 <F-dash>
          Prepared Statement of Major General J. Turner (Ret.)

    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee, on behalf of the National Association of State Workforce 
Agencies (NASWA), I thank you for the opportunity to submit written 
testimony and to appear before you to discuss federal and state 
veterans' employment programs, their challenges, and various 
initiatives.
    The members of our Association are state leaders of the publicly-
funded workforce development system vital to meeting the employment 
needs of veterans. This is accomplished through Wagner-Peyser Act 
(employment services), Workforce Investment Act (WIA), the Disabled 
Veterans' Outreach Program (DVOP) and the Local Veterans' Employment 
Representatives (LVER) programs, as well as other programs and 
initiatives offered through the publicly-funded workforce system.
    NASWA serves as an advocate for state workforce programs and 
policies, a liaison to federal workforce system partners, Congress and 
the public, and a forum for the exchange of information and practices. 
Our organization was founded in 1937. Since 1973, it has been a 
private, non-profit corporation, financed by annual dues from member 
state agencies, grants, and private sector alliance funds. NASWA 
represents workforce agencies in all fifty states, the District of 
Columbia, Puerto Rico, and Guam.
    NASWA thanks the Subcommittee for development of legislation to 
enhance services available for military members and veterans, their 
families, and to improve the transition of military members to civilian 
lives and careers. Helping veterans make a successful transition from 
their service in the military to civilian careers remains a significant 
challenge.
    I would like to acknowledge the passage of the VOW to Hire Heroes 
Act of 2011, which included the Veterans Retraining Assistance Program 
(VRAP), and thank the Subcommittee for its work on this important 
legislation. This new legislation addresses a lack of training 
opportunities for older veterans, and provides much needed resources 
for these veterans.
    Now, I would like to turn to the specific points listed in the 
Chairman's Stutzman's letter of invitation.
    1. Describe NASWA members' efforts to prepare veterans for re-
employment and re-training through the Jobs for Veterans State Grant 
(JVSG) Program as well inform them about benefits available to eligible 
veterans under the Veterans Re-training Assistance Program (VRAP).
    Describe what states have done to contact all age-eligible 
veterans, who have registered for employment services with the State 
Workforce Agency, about the benefits available to them under VRAP
    NASWA members--the State Workforce Agencies--provide employment and 
training services through a system of publicly-funded workforce 
programs across the Nation, with local services provided in almost 
1,800 comprehensive one-stop career centers and almost 1,000 affiliate 
career centers. All employment and training programs funded by U.S. 
Department of Labor are required under the Workforce Investment Act 
(WIA) to provide ``priority of service'' for veterans and eligible 
spouses.
    The Jobs for Veterans State Grants (JVSG) allocates funds to states 
for the Local Veteran Employment Representatives (LVERs) and Disabled 
Veteran Outreach Program (DVOPs) staff positions. The DVOP positions 
focus on employment assistance, re-employment assistance, career advice 
and guidance, case management services, provision of labor market 
information, and preparation and referral to training and other 
resources to veterans. The LVER positions focus on employer and 
community outreach to promote hiring of veterans.
    State Workforce Agencies are challenged by higher demand for 
services and diminished funds. Despite these challenges, over the last 
five years, State Workforce Agencies substantially have increased the 
number of job opportunities available on their state job banks. 
Nationwide an additional 16 million jobs were made available to state 
job banks at no additional cost to federal and state government, 
employers, or jobseekers, through the National Labor Exchange (NLX).
    An electronic tool, the National Labor Exchange (NLX), is a service 
offered by NASWA and DirectEmployers Association. Job openings in the 
NLX do not include duplicates or links to closed jobs; both common 
problems with other electronic job aggregators.
    Moreover, over half of the NLX job openings are with federal 
contractors who under the Vietnam Era Veterans' Readjustment Assistance 
Act (VEVRAA) are required to demonstrate increased veterans' outreach 
and recruitment. By providing enhanced access to high quality job 
openings, the NLX has allowed the state workforce system to meet its 
priority of service requirements better, and has enhanced the system's 
overall ability to serve veterans.
    Today, all state workforce agencies, including Puerto Rico, the 
District of Columbia and Guam, have formal NLX participation 
agreements. On average, the NLX contains approximately 1.1 million jobs 
daily.
    States appreciate the implementation of the Veterans Re-training 
Assistance Program (VRAP), strongly support the program, and are 
enthusiastic about promoting the program to veterans as well as 
employers. However, the regular services provided under the JVSG are 
often stretched by requirements for VRAP outreach and post-training 
placement. Some states are concerned about the requirement to allocate 
resources to market VRAP, assist VRAP applicants to complete Department 
of Veterans Affairs (VA) applications, respond to VRAP questions, and 
eventually provide employment services to the participants without 
additional funds. This seems to be a particular concern of states with 
large rural areas that must provide these services in remote, sparsely 
populated areas.
    The main difficulty in working with VRAP participants is that the 
VA will not disclose Social Security numbers of VRAP participants to 
the workforce system. Social Security numbers are the primary 
identifier used in the workforce system to register, track and report 
services. This disconnection between the two systems makes it difficult 
to track VRAP participants, ensure they are offered the services of the 
one-stop system, and record outcomes.
    State Workforce Agencies and the one-stop career system actively 
promote the VRAP to eligible veterans. States are strongly supportive 
of the VRAP and are using a variety of methods to promote the program 
to veterans, local workforce investment boards, one-stop career 
centers, and employers. Not all states responded to NASWA's inquiry, 
but from the reports received, it appears most--if not all--states have 
systems in place to contact all age-eligible veterans, who have 
registered for employment services with the State Workforce Agency.
    Specific examples for promoting VRAP are:
    <bullet>  Information regarding VRAP is provided during one-stop, 
unemployment insurance, reemployment, and veterans orientation 
sessions;
    <bullet>  A roster of newly registered unemployed veterans is 
shared with all DVOPs, who then send a letter and information regarding 
the VRAP;
    <bullet>  Some states send mass e-mails to all Unemployment 
Compensation for Ex-servicemembers (UCX) claimants;
    <bullet>  Public Service Announcements are used to promote VRAP;
    <bullet>  VRAP flyers, brochures or pamphlets are distributed in 
one-stop centers and other primary locations visited by veterans;
    <bullet>  Signage regarding VRAP is located in one-stop centers;
    <bullet>  Presentations on VRAP are provided to community, 
fraternal, business and veterans groups;
    <bullet>  The state's Management Information System (MIS) is used 
to determine potentially eligible veterans, then information is sent to 
each veteran;
    <bullet>  Direct e-mail blasts are sent to all eligible veterans;
    <bullet>  Information is shared in one-stop center newsletters, 
state or local area newsletters, or veterans-specific newsletters;
    <bullet>  Information regarding VRAP is shared in workshops, job 
clubs, job or hiring fairs;
    <bullet>  Information about VRAP is shared by Wagner-Peyser Act or 
WIA staff with all age-eligible veterans; and
    <bullet>  Some states have developed videos or clips promoting 
VRAP. South Carolina has developed such a video (3 = minutes), which is 
available for viewing at http://www.sces.org/veterans.asp.
    2. Describe NASWA's view of the new policy, either in draft or 
final form that would significantly change the job descriptions and 
responsibilities of DVOPs and LVERs that are funded through the Jobs 
for Veterans State Grant Program.
    At several NASWA meetings during the past few months, the U.S. 
Department of Labor's Veterans Employment and Training Service (VETS) 
staff leaders have discussed the proposed new job descriptions and 
responsibilities of DVOPs and LVERs funded through the JVSG program. 
VETS leaders have also discussed implementing a requirement to lower 
the number of LVERs and increase the number of DVOPs. However, NASWA 
has not seen a draft of the expected proposed directive, and hears 
conflicting information about its contents. The comments in this 
testimony are based on what NASWA has heard from its members, but 
states report hearing different information, often varying by regions 
or states.
    NASWA and its members have voiced concerns about certain aspects of 
the expected new policy. It is expected the new policy directive will 
be provided to the workforce system through a Veterans Program Letter 
(VPL) from VETS, and a Training and Employment Guidance Letter (TEGL) 
from the U.S. Department of Labor Employment and Training 
Administration (ETA). Although these documents are termed ``guidance 
letters,'' they are considered policy directives.
    Many states have already decreased the number of LVERs and 
increased the number of DVOPs; for those states the expected refocusing 
on having more DVOPs than LVERs, this will not be a problem. In some 
states, the pay level for LVERs is higher than for DVOPs; changing LVER 
positions to DVOP positions may result in demotions. Some states have 
bargaining-unit agreements that must be renegotiated before changes are 
made. Most states do not have a job classification called DVOP or LVER; 
they often are in a more generic classification, such a job counselor, 
or employment specialist. Changing job classification requires going 
through a prescribed process in the state's classification system, 
which takes time.
    It is expected the policy directive will include a mandate for 
DVOPs to serve only individuals identified as having significant 
barriers to employment, which we are told would be clearly defined in 
the guidance. Some members report the policy directive is expected to 
mention an ``80/20 rule'' (the percentage may be different) indicating 
that DVOPs must spend at least 80 percent of their time providing 
intensive services and case management to veterans with significant 
barriers. Another, more likely interpretation for the 80/20 rule (or 
whatever percentage) expected in the policy directive is that it means 
only 20 percent of all veterans entering the workforce system can be 
served by DVOPs. All other veterans are to be served by other local 
office or one-stop center staff.
    NASWA members have identified some concerns with the expected 
policy directive, but it is difficult to comment on a document that we 
have not seen and that only has been discussed in vague terms. With the 
reduction of LVER positions, some members are concerned there may be 
less focus on veterans when other non-veteran staff is conducting 
outreach to employers and community groups. Services to veterans in 
rural areas may be impacted depending on the policy directive. Many 
veterans prefer--and often would benefit--to meet with a fellow 
veteran, especially for case management services; this may not be 
possible under the expected policy directive.
    The VETS staff has said the outreach currently performed by LVERs 
can be accomplished by the state or local ``business services team.'' 
Many states agree, but it is important to note that not all states or 
local areas have business services teams. Without the LVER, often 
members of business services teams do not include a veteran, someone 
familiar with veterans' terms, issues, Military Occupational Codes, 
transition resources, or specifics of security clearances relating to 
military experience. Rural areas typically would not have business 
services teams. States have expressed concerns that with the new 
policy, recently-separated veterans--a high-profile and targeted 
group--would typically not be assisted by DVOPs unless they have a 
significant barrier to employment.
    Although vague information has been shared with NASWA and its 
members about the proposed policy directive, states believe it would 
have been more efficient to work with NASWA and states in the 
development of the policy directive before it is announced. Moreover, 
the timeline U.S. Department of Labor requires of states to implement 
the needed changes is critical to the success of the directives.
    3. Describe what NASWA has done to promote the VRAP program to your 
members, any outstanding issues that your members have with the 
implementation of the program, and how your members, or the Department 
of Labor, are tracking the success of this program.
    NASWA has promoted VRAP to its members through presentations and 
information sharing at meetings of its Veterans Affairs and Employment 
and Training Committees and to its Board of Directors; conducting a 
webinar on VRAP; promoting VRAP in its primary publication, 
``Bulletin;'' and providing information on a LinkedIn forum for state 
veterans' coordinators.
    As indicated earlier, the primary difficulty in the implementation 
of the VRAP is the VA policy to not share the Social Security numbers 
of VRAP participants with state workforce agencies. The sharing of 
Social Security numbers by VA would greatly improve the performance 
reporting by the workforce system. Performance is tracked through the 
9002 reporting system, which is sent to the U.S. Department of Labor by 
state workforce agencies.
    A number of states expressed concern about using a ``National 
list'' of demand occupations, which may not be relevant in some 
geographic areas of a state. If veterans receive training in demand 
occupations not available in the local area they plan to reside in, the 
training might not be useful if they cannot or do not want to move. If 
Congress extends the program, it is recommended to consider more 
localized demand occupations.
    Some states report concerns that veterans need to pay the training 
facility before the start of training, and the VA at times has been 
delayed in providing the retraining assistance payment to veterans. If 
veterans do not have personal resources to cover the first training 
payment, they may have to postpone or even drop out of the training 
program.
    The VRAP program is administered by the VA, with veterans' basic 
eligibility determined by the U.S. Department of Labor. Veterans self-
select training courses from an approved list of demand occupations for 
training provided by an approved training provider. The workforce 
system has no role in the program--other than to promote it - until the 
veteran completes training and then the public workforce system has the 
responsibility to assist the veteran in finding employment. State 
Workforce Agencies are concerned that the ultimate responsibility for 
the end result of the training lies with them, with no involvement with 
the veteran until the completion of training.
    In summary, states support the VRAP program and are enthusiastic 
about promoting it.
    Thank you for the opportunity to address these important issues.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
